<html>
<title> - BURMAN, COMBS, DABBAR, DOMENECH, JONAS AND MENEZES NOMINATIONS</title>
<body><pre>[Senate Hearing 115-481]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-481

     BURMAN, COMBS, DABBAR, DOMENECH, JONAS AND MENEZES NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   TO

   CONSIDER THE NOMINATIONS OF BRENDA BURMAN, TO BE COMMISSIONER OF 
             RECLAMATION; SUSAN COMBS, TO BE AN ASSISTANT 
   SECRETARY OF THE INTERIOR; PAUL DABBAR, TO BE UNDER SECRETARY FOR 
SCIENCE, DEPARTMENT OF ENERGY; DOUGLAS W. DOMENECH, TO BE AN ASSISTANT 
SECRETARY OF THE INTERIOR; DAVID S. JONAS, TO BE GENERAL COUNSEL OF THE 
DEPARTMENT OF ENERGY; AND MARK WESLEY MENEZES, TO BE UNDER SECRETARY OF 
                                 ENERGY

                               __________

                             JULY 20, 2017

                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov              
               
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-869 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>                                
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cornyn, Hon. John, a U.S. Senator from Texas.....................     1
Radewagen, Hon. Aumua Amata Coleman, a U.S. Congresswoman from 
  American Samoa.................................................     2
Cassidy, Hon. Bill, a U.S. Senator from Louisiana................     3
Flake, Hon. Jeff, a U.S. Senator from Arizona....................     4
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     6

                               WITNESSES

Burman, Brenda, nominated to be Commissioner of Reclamation......     8
Combs, Susan, nominated to be an Assistant Secretary of the 
  Interior.......................................................    14
Dabbar, Paul, nominated to be Under Secretary for Science, 
  Department of Energy...........................................    18
Domenech, Douglas W., nominated to be an Assistant Secretary of 
  the Interior...................................................    22
Jonas, David S., nominated to be General Counsel of the 
  Department of Energy...........................................    26
Menezes, Mark Wesley, nominated to be Under Secretary of Energy..    30

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Abel, Greg:
    Letter for the Record........................................   136
American Council on Renewable Energy (ACORE):
    Letter for the Record........................................   137
American Recreation Coalition, et al.:
    Letter for the Record........................................   138
American Samoa Government:
    Letter for the Record........................................   139
American Wind Energy Association:
    Letter for the Record........................................   141
Association of Texas Soil and Water Conservation Districts, et 
  al.:
    Letter for the Record........................................   142
Barber, K. Suzanne:
    Letter for the Record........................................   144
Blaine, Casey Q.:
    Letter for the Record........................................   146
Burman, Brenda:
    Opening Statement............................................     8
    Written Testimony............................................    11
    Responses to Questions for the Record........................    61
Calvo, Hon. Eddie Baza:
    Letter for the Record........................................   148
Cantwell, Hon. Maria:
    Opening Statement............................................     6
    Written Statement............................................     7
Carter, Hon. John R.:
    Letter for the Record........................................   149
Cassidy, Hon. Bill:
    Opening Statement............................................     3
Combs, Susan:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................    70
Cornyn, Hon. John:
    Opening Statement............................................     1
Cox, Kendall P.:
    Letter for the Record........................................   151
Dabbar, Paul:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................    80
Domenech, Douglas W.:
    Opening Statement............................................    22
    Written Testimony............................................    24
    Responses to Questions for the Record........................   100
Ducks Unlimited:
    Letter for the Record........................................   152
Flake, Hon. Jeff:
    Opening Statement............................................     4
Geothermal Energy Association:
    Letter for the Record........................................   153
Gila River Indian Community:
    Letter for the Record........................................   154
Gonzalez-Colon, Hon. Jennifer:
    Letter for the Record........................................   156
Greater Killeen Chamber of Commerce:
    Letter for the Record........................................   158
Harris, Scott Blake:
    Letter for the Record........................................   159
Hill, David R.:
    Letter for the Record........................................   161
Jonas, David S.:
    Opening Statement............................................    26
    Written Testimony............................................    28
    Responses to Questions for the Record........................   108
Kane, Michael:
    Letter for the Record........................................   162
Killeen Economic Development Corporation:
    Letter for the Record........................................   164
Langston, Marc B.:
    Letter for the Record........................................   165
Mapp, Hon. Kenneth E.:
    Letter for the Record........................................   167
Mattingly, Hon. Mack F.:
    Letter for the Record........................................   168
McLean, Calpurnia:
    Letter for the Record........................................   169
Menezes, Mark Wesley:
    Opening Statement............................................    30
    Written Testimony............................................    33
    Responses to Questions for the Record........................   119
Moseley, Jeff:
    Letter for the Record........................................   171
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Neugebauer, Hon. Randy:
    Letter for the Record........................................   172
Parry III, William H.:
    Letter for the Record........................................   173
Plaskett, Hon. Stacey E.:
    Letter for the Record........................................   174
Public Employees for Environmental Responsibility (PEER):
    Letter for the Record........................................   175
Public Lands Council and National Cattlemen's Beef Association:
    Letter for the Record regarding Ms. Combs....................   179
    Letter for the Record regarding Mr. Domenech.................   180
Radewagen, Hon. Aumua Amata Coleman:
    Opening Statement............................................     2
Roberts, Amy:
    Letter for the Record........................................   181
Sablan, Hon. Gregorio Kilili Camacho:
    Letter for the Record........................................   182
San Joaquin River Exchange Contractors Water Authority:
    Letter for the Record........................................   183
Service Employees International Union, Local 500:
    Letter for the Record........................................   185
Sessions, Hon. Pete:
    Letter for the Record........................................   186
Solar Energy Industries Association:
    Letter for the Record........................................   187
South Texans' Property Rights Association Board of Directors:
    Letter for the Record........................................   189
Sullivan, Sean:
    Letter for the Record........................................   190
Texas and Southwestern Cattle Raisers Association:
    Letter for the Record........................................   191
Texas Cattle Feeders Association:
    Letter for the Record........................................   192
Texas Farm Bureau:
    Letter for the Record........................................   193
Texas Public Policy Foundation:
    Letter for the Record........................................   194
Texas Wildlife Association:
    Letter for the Record........................................   196
Torres, Hon. Ralph DLG.:
    Letter for the Record........................................   197
Turner, Shelley P.:
    Letter for the Record........................................   198
Urrutia, Elizabeth:
    Letter for the Record........................................   200

 
     BURMAN, COMBS, DABBAR, DOMENECH, JONAS AND MENEZES NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 20, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order. Welcome. We are here this morning to consider six 
nominations, three from the Department of the Interior (DOI) 
and three from the Department of Energy (DOE).
    Our Interior nominees are Brenda Burman, to be Commissioner 
of Reclamation; Susan Combs, to be Assistant Secretary for 
Policy, Management, and Budget; and Doug Domenech, to be the 
Assistant Secretary for Insular Areas. Our Energy nominees are 
Paul Dabbar, to be Under Secretary for Science; David Jonas, to 
be General Counsel; and Mark Menezes, to be Under Secretary.
    I would like to welcome all six nominees to our Committee 
and thank them for their willingness to serve our country.
    To begin this morning we will hear introductions from 
several colleagues, beginning first with Senator Cornyn and 
then Congresswoman Radewagen. Senator Flake and Senator Cassidy 
also wish to provide introductions of some of our nominees.
    At this point in time, before moving to our opening 
statements, I would like you to begin, Senator Cornyn, with the 
introduction that you wish to make before the Committee this 
morning. Welcome.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Chairman Murkowski and Ranking 
Member Cantwell. It is a pleasure to be back with you to 
introduce my friend and fellow Texan, Susan Combs, to be the 
next Assistant Secretary for Policy, Management, and Budget at 
the Interior Department. I will keep coming back as long as the 
President keeps nominating Texans for these jobs.
    [Laughter.]
    I have known Susan a long time, when we were both 
practicing lawyers in San Antonio, Texas. She grew up on her 
family's ranch and is a fourth generation rancher. She 
understands the nature of our nation's precious resources and 
heritage better than most.
    In Texas, Susan has served in multiple levels of 
government, including the state house, and later as the first 
female agriculture commissioner for Texas. But most recently, 
she was our state's comptroller, where she worked tirelessly to 
develop innovative strategies to address regulatory issues 
relating to the Endangered Species Act.
    Susan's efforts to promote conservation were even 
recognized by the Fish and Wildlife Service during the Obama 
Administration. I have absolutely no doubt she is the right 
person for this job. She understands not only how to set goals, 
she is relentless in accomplishing those goals once set, and 
bringing other people along with her in the process. Her unique 
background makes her the perfect choice to help Secretary Zinke 
and his team manage America's vast natural and cultural 
resources.
    We are fortunate to have Susan, that she has agreed once 
again to answer the call to public service. I am glad to see 
her husband, Joe, and her family, who I know are supportive of 
her desire to continue her public service. I am honored to 
support her nomination here today. Thank you for letting me 
make these brief remarks.
    The Chairman. Thank you, Senator Cornyn. I appreciate you 
being here. I do note the number of Texans that are coming 
forward. Maybe we will get a few Alaskans, too. It is good to 
have you here.
    Let's turn to Congresswoman Radewagen. Welcome to the 
Committee.

     STATEMENT OF HON. AUMUA AMATA COLEMAN RADEWAGEN, U.S. 
               CONGRESSWOMAN FROM AMERICAN SAMOA

    Congresswoman Radewagen. Thank you, Chairman Murkowski, 
Ranking Member Cantwell, and members of the Committee. Talofa.
    I am here this morning to introduce a close friend of mine, 
who I have known for some time now, Mr. Doug Domenech, of 
Virginia, who has been nominated to the position of Assistant 
Secretary for Insular Areas at the Department of the Interior. 
Mr. Domenech currently serves as the Senior Advisor to the 
Secretary of the Interior and is also Secretary Zinke's 
appointee to the Advisory Council of the Conservation Trust of 
Puerto Rico, where he has lived and from where his family 
originally hails.
    Previously, he served as the Secretary of Natural Resources 
for the Commonwealth of Virginia, overseeing six state 
environmental, recreation and historic resource agencies. Prior 
to his service to the State of Virginia, Mr. Domenech worked 
for the Forest Resources Association, whose mission is to 
sustain forest resources for future generations while creating 
jobs, a reflection of his environmental background.
    During the George W. Bush Administration, Mr. Domenech 
served at the Department of the Interior as the White House 
liaison and Deputy Chief of Staff to Secretaries Gale Norton 
and Dirk Kempthorne. Additionally, he served as the Acting 
Deputy Assistant Secretary for Insular Affairs during that 
time. Today he is interviewing for a promotion from acting to 
actual Assistant Secretary.
    I have known Doug for several years now, and I am proud to 
call him a true friend. The position for which he is seeking 
your support is very important to the people of the insular 
areas. My home district of American Samoa is an insular area, 
and I can think of no one I would like to see in the position 
more than Doug Domenech. His knowledge and experience of the 
region and the mission of the office is unparalleled, and I 
know that his leadership will be welcomed as we seek to craft 
real solutions for the constituents we serve. In fact, I have 
had the pleasure to see him in action and know that he will hit 
the ground running.
    I think I speak on behalf of all the territories when I say 
we are truly thankful for the time he took to meet with each of 
us prior to this hearing.
    Be forewarned though, Doug, should you be confirmed there 
will be many more meetings to come.
    [Laughter.]
    I want to thank my friend Doug for his willingness to serve 
our great nation and thank this Committee for allowing me to 
come before you today. I hope that you will support his 
confirmation.
    Thank you.
    The Chairman. Congresswoman, thank you. I appreciate those 
introductions from both of you. I know that it is a busy 
morning and you have obligations elsewhere, so thank you for 
joining us here and for those introductions.
    Senator Cassidy, we made arrangements that you also could 
provide an introduction, and you can do it from the dais here 
or----
    Senator Cassidy. I will do it from the dais.
    The Chairman. We are trying to keep things moving because 
we have a busy calendar this morning and lots going on.

                STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Thank you, Madam Chairman, Ranking Member 
Cantwell, and my colleagues on the Committee for holding this 
hearing to consider Department of Energy and Department of the 
Interior nominees. I also thank you for allowing me to 
introduce Luling, Louisiana, native, Mark Menezes, a President 
Trump nominee for Under Secretary of the Department of Energy. 
Mark's congressional and private experience make him eminently 
qualified for this position.
    Proudly, I will say he is a fellow LSU Tiger. Mark earned 
both a bachelor's and law degree from Louisiana State 
University, and Mark is the Vice President of Federal Relations 
for Berkshire Hathaway Energy where he developed extensive 
experience interacting with federal agencies in Congress. The 
organizations he represents employs working Americans across 
the globe building our energy economy with better benefits and 
better wages in these jobs provided by these companies.
    Prior to joining Berkshire Hathaway, Mark was a partner at 
Hunton & Williams where he managed the Regulated Markets in 
Energy Infrastructure Practice Group. Throughout his career 
Mark has worked extensively with FERC, EPA, SEC, FCC, DOE, and 
other state and federal regulatory bodies.
    On Capitol Hill, Mark served as Chief Counsel on energy and 
environment issues for the House of Representatives Committee 
on Energy and Commerce. Mark secured the enactment of the 
Energy Policy Act of 2005 as a chief negotiator and legislative 
architect for the House majority.
    Before working with the Committee on Energy and Commerce, 
Mark worked as Counsel for the U.S. Senate Committee on 
Commerce, Science, and Transportation, where he focused on 
maritime and energy matters.
    One thing I do not have in my notes, but I think I recall 
from the CV, is that you also worked as a roustabout on an oil 
rig in the Gulf of Mexico, and that is a complete breadth of 
experience but one which most recognizes roustabouts' concerns, 
and that is what we need to recognize more in Washington, DC.
    Mark Menezes is qualified with a wealth of experience for 
the position before him. Thank you, and I look forward to 
today's hearing.
    The Chairman. Thank you, Senator Cassidy. I will note that 
our former colleague from Louisiana, Mr. Tauzin, is with us 
this morning, and I know that he has strong words of support 
for Mr. Menezes, so it is nice to have you here.
    Senator Flake.

                 STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Madam Chair.
    I am pleased to introduce today Brenda Burman, the nominee 
to be the next Commissioner for the Bureau of Reclamation and 
the first female Commissioner in the Bureau's 100-year history. 
While I look forward to having an Arizonan in this position, a 
glance at Brenda's resume will show anyone that my enthusiasm 
comes from more than just an in-state bias. She served for 3-1/
2 years as lead water policy expert for my predecessor, Senator 
Jon Kyl, who is certainly a western water legend and who 
strongly supports her confirmation as well. She then went on to 
serve in the Department of the Interior as Deputy Commissioner 
of Reclamation and Deputy Assistant Secretary for Water and 
Science. She also spent four years working for the Metropolitan 
Water District of Southern California, or ``Met.'' She has 
negotiated key water supply issues for an agency that supplies 
one out of every 15 Americans. That certainly demonstrates her 
ability to navigate some thorny situations. Finally, in her 
current role with the Salt River Project, she is back home in 
Arizona working on water projects that ensure continued water 
supply for Central Arizona, including tribal settlements. She 
has built a reputation of expertise and fairness that is 
reflected in the nearly 40 letters that I have received--40 
letters from local, regional, and national groups urging her 
confirmation. I know many of those individuals are here in 
support of her nomination today. I would like to, for the 
record, submit those letters.
    The Chairman. They will be included as part of the record.
    Senator Flake. Thank you, and I urge my colleagues quickly 
to advance her nomination.
    Finally, as Chairman of the Water and Power Subcommittee, I 
look forward to working closely on crucial water issues, 
western water issues, with the Bureau under Brenda's 
leadership.
    So thank you, Madam Chair. And thank you, Brenda, for your 
willingness to serve and for bringing so much expertise to the 
position.
    The Chairman. Thank you, Senator Flake.
    I appreciate all those introductions.
    I would now ask the nominees to take their seat at the 
table. You will see your appropriate name tags there. I will 
now make a brief statement, and Senator Cantwell will make 
hers. We will then swear in each of you and hear your 
testimony, including the introductions of your family members 
if you have any that are with you today.
    You can go ahead and be seated here.
    The first thing I would like to say is that I am glad you 
are here. I appreciate that. I appreciate the fact that we are 
at a nominations hearing with six nominees sitting at the 
witness table. I think this process has been a little bit 
slower than most of us had anticipated, from the receipt of 
nominations to the delays that we are seeing just in 
confirmations.
    Given that we have a total of 38 nominees to process before 
our Committee alone, we have only confirmed two, and reported 
just four others so far, I think this is a good sign this 
morning to have a full table.
    This is an important step as we seek to ensure that 
Secretary Zinke and Secretary Perry have the members of their 
leadership teams in place as soon as possible.
    Secretary Zinke has already proven to be an ambitious 
leader of the Department of the Interior. I had an opportunity 
to travel with him along with several other colleagues here. We 
went to the Arctic in Norway and in Greenland and then flew 
across to the top of the United States there in Alaska. He made 
a very strong impression on many Alaskans while he was there.
    So, Ms. Burman, Ms. Combs, Mr. Domenech, I appreciate your 
willingness to join Secretary Zinke at the Department of the 
Interior. Should you be confirmed, you will be responsible for 
identifying the challenges and the opportunities that exist for 
our federal lands, water management, and territories. Ms. 
Burman, I also want to note that should you be confirmed, you 
are going to be the first female Commissioner of the Bureau of 
Reclamation, so that is good to note. We appreciate that.
    Now I have not yet been able to host Secretary Perry in the 
state, but I look forward to doing so and to working with him 
to continue the Department of Energy's pursuit of scientific 
breakthroughs, transformative technologies, and energy 
dominance.
    Mr. Dabbar, Mr. Jonas, Mr. Menezes, I also appreciate your 
willingness to serve, and I look forward to hearing more about 
what you would do, should you be confirmed, to help increase 
access to energy, make it more affordable, and improve its 
environmental performance.
    For members who have questions for our nominees, know that 
we are going to be trying to work through as many questions as 
possible. There is an Appropriations full committee markup that 
is beginning in 15 minutes, so I am going to be jumping in and 
out of that, but if members have additional questions after the 
hearing concludes, any questions for the record will be due at 
the close of business today. Given the fact that our August 
session has been extended, I also want members to be aware that 
it is my intention to try to move these nominees as quickly as 
we can should they prove qualified and have sufficient support 
within our Committee, hopefully to give them a chance, some 
chance, of being confirmed before we leave in August.
    Finally, I have a large number of letters of support for 
these nominees. Senator Flake mentioned some that he provided 
for Ms. Burman, but I would ask unanimous consent that they be 
made a part of the hearing record, and they will do so.
    With that, I now turn to Senator Cantwell for her opening 
remarks, and then we will swear in the nominees.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. I will be brief 
this morning since we have so much on the agenda and we 
actually have a lot to consider. We will be considering the 
nomination of six senior officers in the Department of the 
Interior and the Department of Energy, and those offices are 
responsible for a wide range of important functions in both 
those agencies. I will have a number of questions for each of 
the nominees, and I am sure my colleagues will as well.
    Part of our task this morning is made a little more 
confusing by the action taken at the agency. We know what the 
two Under Secretaries did previously under these titles at the 
Department of Energy. We know that Secretary Perry plans to 
reassign some of their functions. But exactly how those 
reorganization plans will work and what these individuals will 
be doing will be of question.
    Also, I am concerned about press reports just yesterday 
that Secretary Zinke is reassigning some Senior Executives at 
the agency, including scientists involved in climate issues, to 
other unrelated positions, and I will have some questions about 
that as well.
    We also have Mr. Jonas here for his nomination hearing, and 
while we just got some documentation related to your time at 
the Defense Nuclear Facilities Safety Board, those have not 
been fully reviewed since we just got them either late last 
night or early this morning. We know that there was a dispute 
as you left there, and we will have questions in regards to 
that.
    So I greatly appreciate the Chair's willingness to ask for 
those documents. We just simply have not had a chance to review 
them. I know there will be lots of issues for all of these 
nominees this morning, Madam Chair, and I know we have a busy 
agenda here, so I will keep the rest of my comments and put 
them in the record.
    [The information referred to follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   

    The Chairman. Thank you, Senator Cantwell.
    At this time, the rules of the Committee, which apply to 
all nominees, require that they be sworn in connection with 
their testimony, so I would ask you all to rise and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    [Chorus of yeses.]
    Before you begin your statement, I will ask you three 
questions addressed to each nominee before this Committee. Will 
you be available to appear before this Committee and other 
Congressional committees to represent departmental positions 
and respond to issues of concern to the Congress?
    [Chorus of yeses.]
    Are you aware of any personal holdings, investments, or 
interests that could constitute a conflict or create an 
appearance of such a conflict should you be confirmed and 
assume the office to which you have been nominated by the 
President?
    [Chorus of noes.]
    Are you involved or do you have any assets held in blind 
trust?
    [Chorus of noes.]
    With that, please be seated, and we will proceed. Again, I 
think we have heard some good introductions, and I appreciate 
the comments from colleagues as they have introduced our 
nominees.
    So what we will do is just begin to my left here with Ms. 
Brenda Burman, to be the Commissioner of Reclamation, 
Department of the Interior. She will be followed by Susan 
Combs, who is nominated to be an Assistant Secretary of the 
Interior for Policy, Management, and Budget; Mr. Paul Dabbar, 
to be Under Secretary for Science at the Department of Energy. 
He will be followed by Mr. Douglas Domenech, to be an Assistant 
Secretary of the Interior for Insular Areas. Mr. David Jonas 
has been nominated to be General Counsel for the Department of 
Energy, and Mr. Mark Wesley Menezes has been nominated to be 
Under Secretary for the Department of Energy.
    I would ask that you try to keep your comments limited to 
about five minutes. I am pleased to have you introduce, again, 
any family members that you might have. We appreciate you 
coming before the Committee and your willingness to serve. Ms. 
Burman, if you would like to lead off, please proceed.

  STATEMENT OF BRENDA BURMAN, NOMINATED TO BE COMMISSIONER OF 
                          RECLAMATION

    Ms. Burman. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, and members of the Committee. I am humbled and 
honored to appear here today as President Trump's nominee for 
the position of Commissioner of the Bureau of Reclamation.
    Thank you also, Senator Flake, for your kind remarks, for 
your kind introduction, and for your leadership and service to 
the Grand Canyon State and to the United States.
    Before I begin my remarks, I would like to recognize the 
members of my family who have joined me today. My parents, Tim 
and Pat Burman, are out of the country, but they are joining us 
online. And here in the room I have the Minnesota Burmans, with 
my brother, Mark; my sister-in-law, Linnea; my niece, Annika; 
and my nephew, Collin. They flew out on short notice to support 
me, and I'm very glad they're here.
    The Chairman. Welcome.
    Ms. Burman. I deeply appreciate the trust Secretary Zinke 
has placed in me by asking me to serve as Commissioner of 
Reclamation. I ask for your consent to the President's 
nomination.
    While I was born a westerner in California, my parents 
moved to Minnesota and then to New Jersey, all good places to 
grow up with lakes, rivers, woods, camping, hiking, canoeing, 
and in New Jersey, the shore. Through this upbringing I 
witnessed firsthand the importance of water in all its forms, 
from East to West, from lakes to oceans.
    I fell in love with the Southwest working for the Park 
Service, both in New Mexico and in the Grand Canyon, before 
going to law school. But in my career, I've been fortunate to 
work on many complex water and power issues across the West.
    In Arizona, my first meeting as a young lawyer in 1998 was 
a negotiating session for a Navajo and Hopi water settlement. I 
remember the tribal representatives. I remember the Department 
of the Interior and the Bureau officials and all the local 
stakeholders: ranchers, water districts, local towns, 
utilities. Hours and hours were spent by all of us trying to 
reach an agreement. In that case it did not come together, but 
it taught me a valuable lesson: as long as people keep working 
together, there is always hope it will work.
    I soon represented a party that was working to negotiate 
with the Zuni Indian Tribe and settling their water rights in 
Arizona for the Zuni Heaven Reservation. After four years of 
work and on my last day in private practice, the parties signed 
a settlement agreement.
    I left private practice to move to DC to work for Senator 
Kyl as his water and energy attorney. One of my first tasks was 
to support Senator Kyl in actually passing the Zuni Indian 
Tribe Water Rights Settlement. Knowing the tribe and the 
parties well, I was thrilled to see that settlement through the 
Congressional authorization process. The tribe, the Department 
of the Interior, and the parties back home then did the hard 
work to bring together everything needed to make that 
settlement effective.
    The Zuni settlement was relatively small, which served as 
great preparation for staffing the largest Indian water 
settlement in our country's history, the Gila River Indian 
Community, a tribe with significant land in the heart of the 
Phoenix metropolitan area, downstream from important ranching, 
farming, and mining operations, and nestled between the many 
cities of Arizona's largest metropolitan area. Senator Kyl gave 
significant personal time to bring the parties together, and I 
supported him as he fought for Congressional passage of the 
settlement. When it finally passed, it was one of the proudest 
moments of my career.
    What I learned from supporting Senator Kyl and working with 
all the parties to the Gila settlement, as well as the Central 
Arizona project settlement with the United States and the 
Tohono O'odham Nation Indian Water Rights Settlement, was how 
important it is to understand each party's needs and wants, 
strengths and weaknesses, and their political pressures back 
home.
    Water rights settlements take years of negotiation, they 
take years to secure Congressional passage, and then years to 
implement. You have to learn when to push, when to get out of 
the way, and at times where to draw the line. Cooperation and 
principled leadership are key.
    In 2005, I joined the Department as a member of President 
George W. Bush's Administration and was soon appointed to be 
Deputy Commissioner for External and Intergovernmental Affairs, 
the number two position at the Bureau of Reclamation. Later, I 
was appointed Deputy Assistant Secretary for Water and Science. 
With the Department and Reclamation, I was given the 
opportunity to work on issues directly impacting the Colorado 
River, as it affected all seven Basin states and the country of 
Mexico. This service took place in the form of negotiation and 
analysis of the 2007 Shortage Guidelines and as the Secretary's 
designee for the Glen Canyon Dam Adaptive Management Program. I 
worked on other difficult water issues across the West as well, 
including the Klamath Basin, the Central Valley Project, and 
the Rio Grande.
    After I left Interior, I worked for the Nature Conservancy 
in Arizona as their senior water policy advisor, working on 
Colorado and local river issues as well as forestry issues. 
From there I was hired by Metropolitan Water District of 
Southern California to work in their Sacramento office on, 
among other things, California drought, Bay-Delta matters, and 
Colorado River issues.
    I currently work for the Salt River Project Agricultural 
Improvement and Power District, which operates one of the 
oldest Reclamation projects in the country, providing water and 
power to the Phoenix metropolitan area.
    Collectively, I believe these series of experiences have 
prepared me to serve Secretary Zinke and the American people in 
facing today's top water challenges. If confirmed, I promise to 
perform my duties with integrity, I promise to provide the best 
informed advice possible to Secretary Zinke, and I promise to 
listen to and work with this Committee and Congress, to listen 
to and work with Western water interests, and to listen to and 
work with Reclamation's impressive employees who use their 
expertise every day to deliver water and generate power across 
the West.
    Chairman Murkowski, thank you for the opportunity to appear 
here before the Committee today. I look forward to your 
questions.
    [The prepared statement of Ms. Burman follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much. I appreciate your 
statement and your willingness to serve the Administration.
    Ms. Combs.

    STATEMENT OF SUSAN COMBS, NOMINATED TO BE AN ASSISTANT 
                   SECRETARY OF THE INTERIOR

    Ms. Combs. Chairman Murkowski, Ranking Member Cantwell, and 
members of the Committee, I am deeply honored to appear before 
you today as the President's nominee for the position of 
Assistant Secretary for Policy, Management and Budget at the 
Department of the Interior. President Trump and Secretary Zinke 
have paid me an enormous compliment by recommending me for this 
role. As Chief Financial Officer, I was, of course, 
tremendously honored by the very kind introduction by Senator 
Cornyn.
    I do have a member of my family here. My husband, Joe 
Duran, is here, and our three sons are, we hope, glued to an 
iPad or something else.
    I'm the fourth generation of my family to own and operate a 
ranch in the Big Bend area of Texas just up the road from Big 
Bend National Park. I not only learned how to ride, hunt, and 
shoot, but also that we had to be careful stewards of the land 
and to nurture it for the next generation. We are all proud of 
this national park and glad that nearly 400,000 visitors came 
to our part of the Chihuahuan Desert last year. This area is 
rich in history, flora, fauna, ancient artifacts, and a can-do 
spirit. This arid high desert teaches that you have to be self-
reliant, innovative, and practical.
    I saw firsthand the devastating effects of the 1950s 
drought and the toll it took on the land and everyone connected 
to it. The ranch and its income were my father's only source of 
funds. He said you had to be as tight as the bark on the tree 
with your money, and I have learned that lesson well and have 
worked hard to apply this both on the ranch and in my years of 
public service, balancing needs with fiscal prudence.
    As Agriculture Commissioner in 2005 and '06, I was very 
fortunate to work with the great staff of Fish and Wildlife as 
well as with the military at Fort Hood Army Base in Central 
Texas. Through a very collaborative process, we worked together 
to assemble the Recovery Credit System, which the Service 
adopted to work for the recovery of the Golden-cheeked Warbler 
and the Black-capped Vireo while also assisting the Army in its 
national defense goals. We had a diverse range of partners: 
Environmental Defense Fund, Texas Nature Conservancy, Texas 
Parks and Wildlife, Texas Farm Bureau, Central Texas Cattlemen, 
and other agriculture partners. This project made it clear that 
a cooperative approach to a common goal could indeed produce 
good results for all participants.
    After being elected Comptroller in 2006, we had the chance 
to use a successful method again when there was a proposal to 
list as endangered the Dunes Sagebrush Lizard. Once again, the 
Fish and Wildlife Service was a great partner, along with 
various agriculture and ranching groups as well as oil industry 
officials. The result was the Texas Conservation Plan, which 
was approved by the Service. Its development was a long and 
complex process but resulted in a success for the species and 
the region. I was touched and surprised when I received the 
Regional Director's Conservation Partnership Award in 2014 
based on that recent work.
    The position for which I have been nominated would, should 
the Senate confirm my nomination, allow me to work across a 
broad swath of budget, management, and policy areas in order to 
advance the mission of the Department and that of Secretary 
Zinke. I believe that my prior eight years as Comptroller of 
the State of Texas have given me the tools and the ability to 
analyze, understand, and consider in an open and transparent 
manner how we are going to achieve this mission. Secretary 
Zinke has talked extensively about enhancing human capital as 
well as maximizing the public's access to the nation's land and 
resource heritage.
    From a fiscal perspective, lessons that I learned in 
spending and purchasing can be utilized at the Department. 
Secretary Zinke has also mentioned a large maintenance backlog 
that must be addressed. I would hope to find ways to enhance 
revenues as well as trim costs. While Comptroller, we were able 
to save nearly $400 million by just revising the state's 
procurement processes.
    This Department has a mission covering the entire nation 
and, if confirmed, I will work to ensure the success of the 
President's and the Secretary's goals for the Department, and I 
will do so in an open, bipartisan, and collaborative manner for 
these vital natural resources.
    As a former legislator, I have a keen appreciation of the 
constitutional roles and responsibilities of the Legislative 
Branch and very much appreciate the opportunity to appear 
before you today.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Combs follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Combs. I appreciate your 
commitment on several different levels, and it is nice to have 
you here.
    Mr. Dabbar, welcome to the Committee.

 STATEMENT OF PAUL DABBAR, NOMINATED TO BE UNDER SECRETARY FOR 
                 SCIENCE, DEPARTMENT OF ENERGY

    Mr. Dabbar. Thank you, Chairman Murkowski, Ranking Member 
Cantwell, and members of the Committee.
    It is an honor to be here today. I thank you for the 
productive meetings with you and your staff as we prepared for 
this hearing, and I appreciate your insights that were given to 
me on the important topics about energy both in your states and 
in the nation.
    I would like to thank the President and Secretary Perry for 
their trust and confidence in me for this nomination as Under 
Secretary for Science at the Department of Energy. If I have 
the honor of being confirmed by this body, I look forward to 
working with all of you on the important items that the nation 
faces in the energy sector to meet our energy needs.
    I would like to introduce the most important individuals in 
my life, and that is my family members who are here today. 
Behind me is my wife of 17 years, Andrea, and my kids, Will and 
Katie. I appreciate them being here and giving me the 
opportunity to serve again. Also here are my brother and his 
wife, and his guidance throughout my life has been very 
important to me. And also here are friends of mine from my 
hometown in Oklahoma and my classmates from the Naval Academy.
    If my nomination is confirmed by this body, this will be 
the third time I will have sworn to support and defend the 
Constitution. The first time was when I was 17 years old when 
it was Induction Day at the U.S. Naval Academy. I felt a strong 
desire to serve based on the experience of my family: my 
mother, who joined the Foreign Service from a small town in 
North Dakota right after World War II, and my father, who came 
to this country to escape political oppression. The second time 
was when I was commissioned as an ensign in the U.S. Navy and 
joined the nuclear submarine force, and I had the honor to 
serve in many interesting and sensitive operations, including a 
deployment to the Arctic where I helped lead teams supporting 
the Arctic Laboratory as they deployed solar-powered 
environmental monitoring stations.
    Since my time in the Navy, I have worked at J.P. Morgan's 
investment bank for the last 21 years. I had an opportunity to 
lead energy sector investments and transactions in all 50 
states and around the world. These include all major areas 
including renewables, oil and gas production, mining, 
efficiency, and the electric grid, as well as significant 
volumes of global nuclear work. As a result, I have gained 
experience with energy technologies both in research and 
development, many of which started in various research 
laboratories before being deployed.
    As a result of my technical and investment experience, I 
was appointed by then Secretary Bodman and reappointed by the 
subsequent Administrations' Secretaries of Energy to the 
Department of Energy Environmental Management Advisory Board. 
Accordingly, I have traveled to much of the DOE Complex and 
visited both science and engineering program sites as well as 
environmental management sites. Through this I have developed a 
keen understanding of the breadth, opportunities, challenges, 
and skills of the people who work in the DOE Complex.
    This is a very exciting time in the energy sector. Over the 
past decade, technological developments have accelerated 
significantly. Some of those amazing developments in the 
applied area include significant improvement in wind turbine 
efficiency, solar PV installed costs, battery storage, carbon 
capture, and microgrids.
    In the areas of fundamental science, opportunities exist 
for significant leaps in machine learning and artificial 
intelligence as well as exascale computing and quantum 
information science. The opportunities are significant, and the 
Department is in a unique position with the world's leading 
researchers and physical plant capabilities to help drive that 
progress for the nation. I will ensure that our continued 
leadership and knowledge and technology will help spur economic 
well-being for our nation and our fellow citizens.
    So I have approximately 20 years of private energy 
experience and 20 years of service to the Department of Defense 
and the Department of Energy. I believe I bring a strong mix of 
public and private sector experience required for this position 
because of my energy industry engineering expertise and 
management depth and skills. With your kind consideration of 
this nomination, I can assist the Department of Energy and the 
nation to move forward the bounds of what we can accomplish 
together.
    I thank you again for the opportunity to be here, and I 
look forward to your questions.
    [The prepared statement of Mr. Dabbar follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Dabbar.
    Mr. Domenech, welcome to the Committee.

STATEMENT OF DOUGLAS W. DOMENECH, NOMINATED TO BE AN ASSISTANT 
                   SECRETARY OF THE INTERIOR

    Mr. Domenech. Chairman Murkowski, Ranking Member Cantwell, 
and the members of the Committee, I am deeply honored and 
humbled to appear before you today as President Trump's nominee 
for the position of Assistant Secretary for Insular Areas at 
the Department of the Interior. I am also deeply grateful to 
Secretary Zinke for recommending me to the President for this 
important position. And I especially want to thank 
Congresswoman Radewagen, of American Samoa, for her gracious 
introduction.
    Joining me this morning are members of my family: my wife 
of 38 years, Jeanne, whom I met in forestry school; my son Ben, 
who worked at one point in the office of Senator John Cornyn; 
and my daughter Emily, who is the Energy Subcommittee Staff 
Director for the House Science Committee. My daughter, 
Florence, was unable to attend today, and my son Ellis could 
not attend as he is currently deployed in the war on terror.
    As you know, the Office of Assistant Secretary for Insular 
Areas coordinates federal policy for the U.S. territories of 
American Samoa, Guam, the Virgin Islands, and the Commonwealth 
of the Northern Mariana Islands. In addition, the Office is 
responsible for administering and overseeing the U.S. federal 
assistance to the Freely Associated States of the Marshall 
Islands, the Federated States of Micronesia, and Palau. The 
Office also manages nine little-known American territories with 
no permanent populations, like Palmyra, Baker, and Howland 
islands.
    I am truly honored and thankful to have received the 
endorsement of the four territorial Governors for this 
nomination: Governor Moliga, of American Samoa; Governor 
Torres, of the Northern Mariana Islands; Governor Mapp, of the 
Virgin Islands; and Governor Calvo, of Guam.
    I would also like to thank all of the Congressional 
delegates from the insular areas who have each taken the time 
to meet with me before this hearing. I appreciate their input 
and, should I be confirmed, I look forward to working with each 
of them moving forward.
    I regret that my parents could not be here to witness this 
moment. Unfortunately, both have passed away and are buried in 
Arlington National Cemetery. My father, born in Santurce, 
Puerto Rico, spent his career serving our country in the United 
States Army. In many ways, my father's service to the country 
brings me here today. Like many military families, we moved 
around the country with each new assignment. As a native 
Spanish speaker, my father's deployments were often to Latin 
America, so we lived in Panama, the Dominican Republic, and 
Puerto Rico. In fact, while attending Antilles High School in 
Puerto Rico, I took my first trip to the Virgin Islands. I was 
playing defensive end on my high school football team, and we 
flew to the island of St. Thomas to play against their high 
school team. We lost. In fact, we lost every time we played the 
Virgin Islands team.
    After receiving my college degree in forestry and wildlife 
management from Virginia Tech and undertaking a career in that 
field, I had the opportunity to serve in the George W. Bush 
Administration in a number of positions at the Department of 
the Interior. During that time, I was asked by then Secretary 
Dirk Kempthorne to serve as his appointee to the Advisory 
Council for the Conservation Trust of Puerto Rico and later as 
Acting Deputy Assistant Secretary for Insular Areas.
    That appointment gave me the opportunity to work on issues 
and travel to Guam, the Virgin Islands, and the Mariana 
Islands. These visits afforded me the occasion to work on 
health care capacity issues, foreign worker policy, invasive 
species concerns, and the unique challenges of affordable 
energy on the islands. Of special note, I had the unique 
assignment to lead a U.S. Geological Survey volcanologist team 
to the remote northern island of Pagan to investigate its 
energy potential.
    After the end of the Bush Administration, I was honored to 
be selected and confirmed as Virginia's Secretary of Natural 
Resources. In that role, I oversaw six state environmental, 
recreation, and historic resource agencies and worked with the 
Governor to improve the health of the Chesapeake Bay, achieve 
the best year on record for clean air, build oyster and blue 
crab populations, and reintroduce elk into Southwest Virginia. 
We invested in land conservation and worked with Virginia's 11 
state-recognized Indian tribes to permanently protect 
historically significant Werowocomoco, the Indian village of 
Chief Powhatan.
    These experiences together bring me before you today. The 
people living on these remote islands face unique economic, 
national security, and environmental challenges. Our fellow 
Americans should feel confident that the U.S. Government will 
help address these concerns. If confirmed, I pledge to work 
with the members of this Committee to do just that.
    Thank you.
    [The prepared statement of Mr. Domenech follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Domenech.
    Mr. Jonas, welcome to the Committee.

         STATEMENT OF DAVID S. JONAS, NOMINATED TO BE 
          GENERAL COUNSEL OF THE DEPARTMENT OF ENERGY

    Mr. Jonas. Thank you and good morning. Chairman Murkowski, 
Ranking Member Cantwell, distinguished members of the 
Committee, thank you for considering my nomination to be the 
General Counsel of the U.S. Department of Energy. It is a 
privilege to be considered and an honor to appear before you 
today.
    I also want to thank those Committee members and staff who 
have met with me in the weeks leading up to this hearing and 
for sharing your insights about how we can work together, if I 
am confirmed, to make America more energy-secure and to fulfill 
DOE's legal obligations, as well as other commitments, to clean 
up nuclear waste sites that date back to the Manhattan Project 
and the Cold War.
    Let me also express my appreciation to President Trump and 
to Secretary Perry for the confidence they have placed in me 
and for asking me to serve in the Administration.
    I especially want to thank my wife, Tina, who has been by 
my side for the last 23 years and is here with me today. I want 
to thank her for her love and support. And I would also like to 
take a moment to thank my parents, a special thank you to them, 
who are unable to be with us today. I'm hoping that they are 
maybe watching remotely. Last, I thank my friends and 
colleagues and even two former supervisors who are with us here 
today for showing their support. I'm truly honored.
    The responsibilities of the General Counsel include 
providing legal advice and counsel to the Secretary and senior 
departmental officials to ensure compliance with applicable 
laws and regulations. The General Counsel also leads the 
outstanding career staff of lawyers and legal support personnel 
at DOE.
    I come before this Committee with more than 30 years of 
professional legal experience in the military, the Federal 
Government, and the private sector. My experience includes more 
than 20 years as a Judge Advocate in the United States Marine 
Corps, followed by almost a decade as a career member of the 
Senior Executive Service. I have been the General Counsel of 
two federal agencies, the National Nuclear Security 
Administration (NNSA) as well as the Defense Nuclear Facilities 
Safety Board. These positions are relevant to the position you 
consider me for today.
    NNSA represents a major part of the operating activities of 
the DOE, and as the General Counsel of NNSA, I worked in close 
cooperation with the DOE General Counsel, two of whom have 
written letters of recommendation to the Committee on my 
behalf, one Democrat, who happens to be here, and one 
Republican. The Defense Board advises the Secretary regarding 
public health and safety issues at DOE defense nuclear 
facilities.
    In terms of legal practice, I have extensive litigation 
experience at the trial and appellate levels. I was privileged 
to become the first uniformed Judge Advocate in the history of 
the Army, Navy, Air Force, or Marine Corps to argue a case at 
the U.S. Supreme Court.
    I have also negotiated numerous international agreements in 
the nuclear realm, including the U.S.-India Civil Nuclear 
Agreement. I have previously rendered advice to government 
officials covering the waterfront of federal legal issues 
including international law, government contracts, 
appropriations, administrative, legislative, personnel, ethics, 
labor, and environmental law. I have expertise in national 
security law and nuclear nonproliferation law, which I taught 
at Georgetown and George Washington University law schools for 
more than a decade.
    Some recent press articles point to a writing of mine from 
more than two decades ago. The opinion piece was about women 
and homosexuals serving in the military. It was a reflection of 
the time it was written and does not reflect my current views. 
It's important for each of you to hear this directly from me, 
that my views have evolved. A lot has changed since that was 
written, and I believe the change has been for the better. As a 
Marine, I have the utmost respect for anyone, no matter gender, 
race, or sexual orientation, who is willing to serve our great 
country.
    Since these proceedings don't always allow for the 
opportunity to know us personally, I wanted to share my 
personal commitment to serving the Department and the men and 
women who would be my colleagues if I'm honored to be 
confirmed. If confirmed, I will bring all this experience, 
including the experience of changed minds, to bring to bear as 
the DOE General Counsel, and will diligently apply and 
faithfully observe the laws passed by Congress.
    Chairman Murkowski, Ranking Member Cantwell, and members of 
the Committee, thank you again for the opportunity to appear 
before you today. I appreciate the Committee's consideration of 
my nomination and, if confirmed, look forward to working with 
you and your colleagues as well as the Committee and personal 
staff. I welcome the opportunity to answer any questions that 
the Committee may have.
    Thank you.
    [The prepared statement of Mr. Jonas follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Jones.
    Mr. Menezes, welcome to the Committee.

    STATEMENT OF MARK WESLEY MENEZES, NOMINATED TO BE UNDER 
                      SECRETARY OF ENERGY

    Mr. Menezes. Chairman Murkowski, Ranking Member Cantwell, 
distinguished members of the Committee, and personal staff, 
thank you for scheduling this hearing this morning and taking 
time from your busy schedules to be here.
    Thank you to those who have met with me prior to the 
hearing to present your views and recommendations on how we can 
improve the Department. These meetings have increased my 
appreciation about the Department and the importance of its 
missions and priorities.
    It is an honor and I am humbled to be the President's 
nominee for Under Secretary of Energy. If confirmed, I look 
forward to working with this Committee, Secretary Perry, and 
the dedicated workforce at the Department serving the American 
people.
    Joining me for the hearing are my family and friends, 
without whom I would not be here today. Sitting behind me, my 
wife, Dr. Yun-hyang Lee, my inspiration for public service as 
the Division Chief of Interpreting Services at the State 
Department; my daughter, Paige Jennings, a former Barrow and 
Carper Senate staffer, now an attorney here in town; and Will 
Cho, a businessman from New Jersey. Unable to be here are my 
daughters Stephanie Cho, a biomedical engineer in Tokyo; my 
daughter Marisa, an attorney advisor for the Social Security 
Administration in Baltimore, another public servant; my brother 
Lewis, from Texas; my sister Donah; grandniece Miss Jolie; Mr. 
Kayden, my grandnephew; my sister-in-law Cheryl; and other 
family members and friends who have been supportive over the 
years and share in my honor are here or are streaming the 
hearing live at various places throughout the country. And the 
person most responsible for my life's achievements, my mother, 
a retired public school teacher, Doris.
    The Chairman. We welcome them all. I think we have a full 
family complement today in the Committee, and that is great to 
see.
    [Laughter.]
    Mr. Menezes. Thank you.
    As described by Senator Cassidy, this will not be my first 
time in public service. Being in this grand committee room, I 
see former colleagues, and I am reminded of our work together 
on the Energy Policy Act, referred to by Senator Cassidy. It 
was a comprehensive energy bill that has helped shape our 
nation's energy policy in many ways and put in place several 
programs in existence today at the Department. It was the work 
of several Congresses begun by then Chairman Frank Murkowski 
and then Ranking Member Jeff Bingaman, refined by subsequent 
Congresses, and finally enacted under the leadership and 
dedication of Senators Domenici and Bingaman, and House 
Chairmen Billy Tauzin, who was here early this morning, Joe 
Barton, and Ranking Member John Dingell.
    I recall late in the evenings we would gather in Senator 
Domenici's small office off the Capitol Rotunda, and frequently 
we would have breakout sessions in the Capitol dome to work out 
the very difficult issues and prepare issues to bring to the 
Congress that we could not work out. To this day, when I see 
the light at the top of the Capitol dome shining above the Mall 
with its grand monuments gracing our nation's capital, I see a 
symbol of what can be accomplished with bipartisanship, 
collaboration, and dedication to working together to serve all 
Americans.
    The bill was not perfect; we didn't get everything right. 
Subsequent Congresses changed it, multiple agencies have 
promulgated rules interpreting and implementing it, and courts 
have decided the fate of several of its provisions, but it was 
a product of our system of government working as it was 
designed, with all three branches doing their part. That 
experience of understanding opposing views, creating options, 
and developing solutions will serve me well at the Department 
should this Committee approve my nomination and the Senate 
confirm me.
    I have learned valuable lessons working for several of our 
nation's largest utilities: Central and South West, which 
merged with American Electric Power, and, most recently, my 
time with Berkshire Hathaway Energy. These positions provide a 
shared experience of managing collectively almost $150 billion 
in energy assets, over 38,000 employees, and serving over 17 
million customers in almost half of our states. I gained 
management experience of large corporations with diverse 
workforces, worked to accomplish stretch goals under budget, 
faced the challenges in today's competitive energy markets, 
embraced the 24/7/365-days-a-year obligation to meet customer 
demands for affordable, reliable energy, and gained an 
understanding of the regulatory labyrinths of state commissions 
and the several federal agencies that regulate energy companies 
today.
    These corporations trained me in leadership and management 
styles and how to plan, set goals, and measure performance. At 
Central and South West, I learned the Grid Management system 
that trains leaders to cultivate a culture of empowerment so 
all employees contribute in the pursuit of goals. This training 
calls managers to promote the best in leadership and empathy, 
essentially teaching us the most important lesson that not one 
of us is smarter than all of us, and that plans to achieve 
goals must be constantly critiqued and evaluated with set 
measures of success. At Berkshire, I recently participated in 
management training in the ``3-G Way,'' which emphasizes 
treating people with greatness, fulfilling dreams, and 
instilling a culture of shared values. Goals are achieved 
through a constant process of planning, acting, measuring, and 
correcting. Performance is systematically improved through 
``gap'' analyses to ensure goals are being achieved. This 
training and experience I will bring with me to the Department, 
should I be confirmed.
    As others have said before me, these are exciting and 
challenging times to be in the energy space. Evolving, 
innovative technologies, many developed at our national labs 
and the Department's R&D programs, have improved the quality of 
all aspects of our lives, not just energy, but communications, 
transportation, science, health, and the environment.
    Indeed, in my professional career I have experienced the 
march of technological developments through the establishing 
prototypes of early wind and solar projects in West Texas to 
the more recent technological advancements installed by 
Berkshire's MidAmerican Energy in many of its wind projects 
across Iowa, making Iowa second only to Texas in wind 
production.
    Members of the Committee, I wish to thank you again for 
allowing me to be here today. It is indeed an honor to come 
before the Committee, and I ask for your favorable 
consideration of the President's nomination. I look forward to 
hearing your questions to learn more about the challenges 
facing the Department.
    And, Chairman Murkowski, I would like to express a thanks 
for having received letters of support from the Solar Energy 
Industry Association, the American Wind Energy Association, the 
American Council on Renewable Energy, as well as the Geothermal 
Association, and there are several other letters in the record 
of support.
    Thank you.
    [The prepared statement of Mr. Menezes follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Very good. Thank you.
    At this time, we will proceed to the first round of 
questioning for our nominees before the Committee.
    Ms. Combs, let me start with you. I can't ever have 
discussions with my colleagues from Texas before we start 
talking about the size of our respective states----
    [Laughter.]
    --but one of the things that is very unique between the 
two, and I am always very envious when I think of Texas, is 
most of the lands in Texas are not held under federal 
ownership, unlike Alaska, where some 63 percent are under 
federal management. And we say a lot back home that the 
Department of the Interior is effectively our landlord. One of 
the things that I think made Secretary Zinke's visit so 
positive back home was he said, ``I don't think I like the 
landlord description, I like the partner description.'' We 
would certainly hope that you adopt that same view and 
perspective.
    But truly your challenge, one of them, as I see it, is to 
oversee the management of over 245 million surface acres and 
over 700 million acres of subsurface mineral estate. Over one-
fifth of it is in my state, which again means that even some 
seemingly simple decisions made here in Washington have a great 
deal of impact on us.
    So give me just very quickly your view, your understanding, 
of the role between state and local governments as well as 
other stakeholders in terms of the role of management on our 
public lands because this is important to us on a host of 
different levels. So if you can speak to that aspect of your 
role as well as what it means from the permitting process and 
how states like Alaska can most effectively access some of the 
resources that are on our lands.
    Ms. Combs. Thank you, Senator, for that question. I'm going 
to reuse the word ``partner'' and I think add to that 
collaboration and conversation, and I think the picture you 
laid out of the amount of land that you have that you obviously 
would like to see used and maintained and having access to, 
Secretary Zinke has talked about responsible use and also 
engaging with partnerships.
    So whether it is tribal communities or whether it is cities 
and counties, local governments, I certainly believe in that. I 
have used that collaborative approach on the endangered species 
issues I referred to in my opening remarks. But I think that 
the issue I'm also aware of from your staff is about the 
transfer of some lands and the selection process, and that is 
something I very much am eager to help you and Secretary Zinke 
move that forward. I know it's been quite a long time. So thank 
you.
    The Chairman. Well, I appreciate that. There is a 
recognition that there have been a lot of promises that have 
been made to Alaska on statehood and to Alaskans, whether they 
be Alaska Native veterans or Native allotments, promises made 
that have yet to be delivered on, so we look forward to working 
with you on that.
    I want to ask a question about the Arctic Energy Office, 
and this is for you, Mr. Dabbar and Mr. Menezes. Right now, in 
the Appropriations markup going on with Energy and Water, the 
bill includes language that we included that supports a renewed 
focus on the Arctic region, and it encourages the Energy 
Department, as a cross-cutting activity, to use the Arctic 
Energy Office as a centralized area to support the use of 
energy resources and innovative activities. So I'm looking for 
a commitment from you, gentlemen, to come to Alaska to see the 
opportunities that we have to produce the energy, our need for 
affordable energy, but also how the focus on the Arctic and the 
utilization of the Arctic Energy Office can continue.
    Mr. Menezes, do you want to comment on that?
    Mr. Menezes. Thank you very much for that question. That 
was precisely one of the questions that we talked about with 
your staff, and we appreciate very much you making your staff 
available to us. But we discussed at length the office and the 
needs of the Alaskans. And indeed you have my commitment that, 
should I be confirmed, that we will look very seriously at that 
and work with Congress to ensure that we have adequate 
resources to reestablish that office, as I think it had been in 
existence before.
    The Chairman. Correct. I appreciate that.
    Mr. Dabbar.
    Mr. Dabbar. Thank you, Senator, for the question. I have a 
reasonable amount of experience with Arctic energy issues. I 
fully appreciate in particular remote villages that have harder 
access to energy and the importance of that, and the amount 
that technology can improve the opportunity for energy. I 
welcome the opportunity to visit your state again, hopefully 
this time above the surface of the water.
    [Laughter.]
    The Chairman. We look forward to that as well.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair. I know how 
important this hearing is, but I am almost--there is just so 
much to talk about, so much for each of you and each of your 
positions. There are a couple of broad things that is kind of 
striking to me this morning. One, we have this issue with the 
Department of Energy as it relates to Secretary Perry saying he 
wants to reshuffle some things. And then over at Interior, we 
have the Secretary, who is basically saying, ``I'm reassigning 
some people who are in charge of science.'' So it is a lot of 
confusion and, in my sense, a lot of undermining of science.
    For me, in the State of Washington, our big concern is 
Hanford cleanup--making sure that Hanford gets cleaned up and 
that we have people dedicated to that mission.
    So, Mr.--it is----
    Mr. Menezes. Menezes.
    Senator Cantwell. ----Menezes, first I wanted to ask you 
because under Secretary Moniz, he tasked the Under Secretary 
with various management functions, including the Environmental 
Management program responsible for Hanford cleanup. He also 
made the Under Secretary responsible for the Environmental, 
Health, and Safety program, which is responsible for protecting 
the cleanup. Secretary Perry has indicated he plans to reassign 
those functions, but he has not told us how. What is your 
understanding of what your role is to be at the Department?
    Mr. Menezes. Thank you very much, Ranking Member Cantwell, 
for that question. The first question that I got from your 
staff when we met was in fact this question. And, of course, it 
arises out of the fact that we, back in '05, had created the 
Under Secretary for Science. You know, it's expected of any 
incoming administration, of course, to review the organization 
and management of the past administration and to make changes 
where necessary, but also to continue things, you know, in 
existence.
    The naming of the Unders, of course, is consistent with 
historical practices going back to 2005 and as statutes define 
them. But it's the current organizational nomenclature that's 
the historical anomaly. But, so----
    Senator Cantwell. Okay. I'm sorry I have to interrupt 
because of the overwhelming amount of people that are here and 
these are important questions. So are you going to be 
responsible for Hanford cleanup? Is it going to be your 
responsibility?
    Mr. Menezes. On day one----
    Senator Cantwell. Do you understand the moral obligation 
here and the size and scope of the largest nuclear waste 
cleanup site in the entire world and the billions of dollars we 
spend annually on trying to achieve this goal?
    Mr. Menezes. Yes, I do.
    Senator Cantwell. Okay. So you----
    Mr. Menezes. On day one, it will be under my management.
    Senator Cantwell. Okay. You have been told by the Secretary 
that is the case.
    Mr. Menezes. I have not had direct conversations with the 
Secretary on this at all. I have not been briefed on this, but 
it is my understanding that on day one I will assume the Under 
Secretary for Management and Performance as currently in 
existence.
    Senator Cantwell. Mr. Dabbar, what is your understanding of 
your role and responsibilities, and where are you on the 
urgency and critical importance of making sure there is 
adequate funding for Hanford and Hanford cleanup?
    Mr. Dabbar. Thank you, Senator. I fully appreciate the 
importance of this to your state and to the nation. As someone 
who has worked in the nuclear power industry both from an 
engineering and from an investment point of view for my whole 
adult life, I fully appreciate that. In addition to that, I've 
been to the Hanford Reservation many, many times, more times 
than I can remember, visiting both the National Lab and the 
full EM Complex as well as Columbia Generating Station. So I 
think I have a very good understanding of the urgency.
    I understand the moral imperative associated with what 
Hanford accomplished during World War II and subsequently 
during the Cold War and the obligation of the nation to clean 
it up. I have a very keen understanding and sympathy for the 
Tri-City area and some of the obligations both morally, but 
also legally, under the Tri-Party Agreement. In my position, as 
Under Secretary of Science, clearly I will run the science 
complex, Office of Science.
    As a restructuring might move things around, and once 
again, I have not been fully briefed, I feel I bring full skill 
sets and appreciation in particular on the science side of 
technology. I have a full appreciation for the requirements of 
the Tri-Party Agreement and the requirements, in particular the 
tank farm that technology is going to be needed that has not 
been produced in order to meet the requirements of the Tri-
Party Agreement.
    Senator Cantwell. And what about worker safety?
    Mr. Dabbar. I completely have a very strong feeling around 
vapor point and around other things that have come up, the 
PUREX incident that just occurred. Once again, as an operating 
nuclear engineer, I have a full sympathy to make certain that 
safety is paramount for an organization, certainly in the 
nuclear waste complex.
    Senator Cantwell. Well, I know my time has expired, Madam 
Chair, but this is such an important issue. It is not just for 
Washington, it happens to reside in our state, and we do have a 
Tri-Party Agreement, but I think everybody in this nation 
deserves an answer on how this is going to be managed and who 
is going to have what responsibilities. Every OMB director 
takes a stab at trying to redo this as well and comes up with 
an idea that they want to foist on all of us, and then all of 
us, as the oversight committee, try to make sure that the 
actual cleanup and the funding is there. So I just cannot 
imagine moving forward without having clarity. But I so 
appreciate your depth and knowledge on that subject, and thank 
you for the commitment on the worker safety as well.
    Madam Chair, I am going to come back to this. These subject 
matters are so important and so broad and so in-depth, and I am 
sure my colleagues feel the same way. I will come back to the 
rest of the witnesses on the second round.
    The Chairman. Thank you, Senator Cantwell.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. And thanks to all 
the nominees who are here today. Thank you for your willingness 
to serve, and welcome to your families.
    Ms. Combs, I apologize that we ended up missing yesterday's 
meeting. Lunch with your new boss took a little bit longer than 
I think any of us anticipated at the White House yesterday.
    I wanted to just visit with you a little bit about the 
effort that I have been leading to move the Bureau of Land 
Management (BLM) headquarters to the Western part of the United 
States. Of the 248.3 million acres of public land managed by 
the Bureau of Land Management, 248.2 of that 248.3 million 
acres are located west of the Mississippi River--it is over 99 
percent of the land located out West. There is no question that 
having some headquarters located in the West could result in 
better policies for our tribes, ranchers, constituents, 
recreationalists, and energy producers. I would just like to 
get your commitment that, if confirmed, you will work with me 
to make moving the BLM headquarters to the western states a 
reality.
    Ms. Combs. Thank you, Senator. You, of course, have my 
commitment. I've seen those numbers before. And Secretary Zinke 
has also talked about, you know, fielding the folks where the 
land is and the fielding is, and I'm sure that he will be 
visiting with you as well. But I look forward to visiting with 
you about that.
    Senator Gardner. Thank you very much. Northwest Colorado 
had a naval oil shale site that needed cleanup, and that 
cleanup was finished a few years ago. The fund that was 
generated within the Department to collect oil and gas mineral 
revenue in the area to assist with the cleanup contains revenue 
that needs to, by law, be returned to Colorado. Members of the 
Colorado Congressional delegation have been trying to get this 
returned to our state for years. With this new Administration, 
I would like to work to get this situation rightfully 
addressed. Will the Department look to find ways to return this 
money to Colorado, as the law says?
    Ms. Combs. Yes, Senator. Your office briefed me on that 
yesterday. I think the sum is $77 million. And I certainly, the 
minute, if I'm confirmed, I will be calling you on the phone.
    Senator Gardner. Thank you. And if it must be done 
legislatively, I would hope that you would make it a priority 
to ask Congress to assist. Can I get that assurance?
    Ms. Combs. Yes, sir, you do.
    Senator Gardner. Thank you. Thank you.
    Ms. Burman, we had the opportunity to visit not too long 
ago talking about water issues. We talked about the Arkansas 
Valley conduit, which was approved by John F. Kennedy, signed 
into law by John F. Kennedy, but still not built yet, something 
that we will continue to work on. We talked about the need for 
permit reform so that it does not take a decade-plus to build 
water storage projects when we know in a state like Colorado we 
are just a few decades away from needing $15 billion worth of 
water storage projects, and we have to find a way to help meet 
the needs of future growth, industry, municipalities, and 
agricultural to make sure that we can get that.
    But I wanted to focus on something that has happened more 
recently in states like Colorado and Montana. In the most 
recent farm bill a couple years ago, Congress authorized a 
pilot program for the production of hemp. Unfortunately, the 
ability for farmers in Colorado to move forward on hemp 
production has been stymied and in other states has been 
stymied because they are using water which may move through 
federal facilities to grow these crops.
    Earlier this week, I joined with colleagues from Colorado, 
Montana, Senator Daines, and in Oregon to introduce legislation 
that would allow for the production of hemp using federal water 
so long as it complies with state law. I would just like your 
commitment to review the Bureau of Reclamation's policies 
toward hemp production to ensure states' rights when it comes 
to water are properly respected.
    Ms. Burman. Senator, thank you again for meeting with me 
this morning. I appreciated having our discussion about water 
supply, about the Arkansas conduit. I commit to you to going 
back, if confirmed, and taking a look at that legislation and 
working with you to see what we can do.
    Senator Gardner. Yes. Thank you. And, again, I think it is 
very clear in federal law, whether it is the Supreme Court 
precedent that states' primacy over water right determination 
should hold. And so I believe this is a matter of state right 
and state water law that should be supreme.
    Mr. Dabbar, a question for you on the role of science. I 
want to make sure that I am clear on just how you view science 
overall, how you view something like DOE's Office of Energy 
Efficiency and Renewable Energy (EERE) and the National 
Renewable Energy Laboratory, if you would.
    Mr. Dabbar. Thank you, Senator. And thank you for the 
conversation I had with you and your staff on the importance of 
that site in your state, but also the importance for it for the 
nation.
    Clearly, the Lab, the Renewable Lab, in your state is at 
the forefront of a lot of development on technologies about 
wind and wind modeling around PV and new different types of 
technologies around PV production as well as batteries and 
storage.
    It is obviously very important. The amount of growth in 
renewables that the private sector is growing in those areas is 
at very high rates, and the importance of that to our nation 
that can translate from research into manufacturing so that the 
maximum amount of those sort of resources that are made in this 
country as a production basis are manufactured here.
    So I look forward to hopefully coming to visit the site and 
learning more about the specific programs and hopefully be an 
advocate for those programs.
    Senator Gardner. All right. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Gardner.
    Senator King.
    Senator King. Thank you, Madam Chair. You mentioned Texas 
and Alaska. When I was up with you for the field hearing in 
Alaska, I remember a t-shirt that had a picture of Alaska, and 
Texas was in the middle, and the title was ``Poor Little 
Texas.'' It was a----
    [Laughter.]
    I wish I had brought it. I should have brought it back for 
you.
    The Chairman. [Off microphone.]
    [Laughter.]
    Senator King. You are very generous. For those of you who 
have mentioned that this hearing is streaming, I can tell you 
that is not an unmixed blessing. On Tuesday morning, I made a 
presentation down here that was streamed. I talked to my wife 
last night and said, ``How did it go?'' She said, ``I watched 
it on streaming. The second half was good.'' It was a kind of 
qualified praise.
    [Laughter.]
    So you have to be careful with streaming.
    Mr. Dabbar, I was doing some research on your background. I 
must say I saw some of the most colorful comments about your 
skills, two I cannot resist mentioning. You were characterized 
as ``one bright cookie.'' I like that one. But the one I really 
liked is, ``There ain't no such thing as a stupid nuclear Navy 
guy.''
    [Laughter.]
    So I congratulate you on those, I think, high compliments.
    [Laughter.]
    Ms. Combs, the Department of the Interior needs to talk 
about the National Park Service. And what concerns me is that 
there is a very big backlog, as you know, of maintenance aside 
from roads. I believe the total backlog is about $11 billion, 
but the roads are about $5 billion so we are talking about $6 
billion, and yet in the budget that has been submitted this 
year, the Park Service is cut by 11 percent.
    How do you plan to deal--briefly, because I have a limited 
amount of time--how do you plan to deal with the backlog of 
maintenance in our national parks which are more and more 
popular every year? Last year Acadia National Park had named, 
just from '15 to '16, a 20 percent increase in visitors.
    Ms. Combs. Thank you, Senator. That is obviously a very 
important issue for Secretary Zinke as well. I was not a part 
of creating the budget, I'm not at the Department, but I will 
commit to working with you to find ways, for one thing, to 
increase revenues as well as reduce costs. I know that the 
national parks are a giant economic driver in the communities 
where they are located. The public loves to visit them, which 
is why I mentioned the 400,000 people just running down the 
road near me. This is important----
    Senator King. It's 3.2 million at Acadia in Maine, 3.2 
million visitors at Acadia in Maine, so----
    Ms. Combs. Yes. And it's very, very important, and I look 
forward to working with you and ensuring that we have a good 
process in place to reduce and get rid of the backlog, the $5 
billion.
    Senator King. Now, to our three nominees for the Department 
of Energy, budgets represent policy. In 2017, Congress 
appropriated funds for various offices in the Department of 
Energy. The budget that was submitted by this Administration 
cuts energy efficiency and renewable energy by 70 percent; 
electric delivery and reliability by an unbelievable 40 
percent; Office of Science at the labs, 17 percent; ARPA-E, a 
basic science research, 93 percent, essentially eliminated; 
weatherization, very important in my state, eliminated; state 
energy programs, eliminated. There was even a cut to the Energy 
Information Administration, which I just cannot believe because 
data is so important. Congress is not going to go along with 
those cuts. In fact, the Appropriations Committee is working on 
them right now.
    Here is my question to the three of you, and yes or no 
answers, you can do it in unison as we did it with your 
swearing in, I hope. If funded by the Congress and the 
appropriations process, will you see to it that these programs 
will be fully implemented and appropriated funds expended in 
accordance with Congressional intent?
    Mr. Menezes. Yes.
    Mr. Jonas. Yes.
    Mr. Dabbar. Yes, Senator.
    Senator King. Those were the right answers.
    [Laughter.]
    Will you see to it that these programs are adequately 
staffed in accordance with Congressional intent?
    Mr. Menezes. Yes.
    Mr. Jonas. Yes, Senator.
    Mr. Dabbar. Yes, Senator.
    Senator King. I appreciate your straightforward answers.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Flake.
    Senator Flake. Well, thank you. Sorry I had to go, but I 
enjoyed hearing, Brenda, your testimony and your introduction.
    With Reclamation, obviously, everybody knows the importance 
of water to Arizona. It is our lifeblood. And fortunately you 
have a lot experience--you mentioned your experience with 
Senator Kyl's office. Can you talk about the Indian water 
settlements and how important that is to states like Arizona 
and other Western states?
    Ms. Burman. Senator, thank you for raising that. I've been 
working on Indian water rights settlements my entire career. 
For Arizona and for the other states in the West, it's hard to 
explain how important they are. Indian tribal rights are often 
first in time, first in right, which means that they call into 
question rights that came after them. By negotiating, by 
settling these rights, by not going to litigation, you can come 
up with solutions that are good for all parties, and that's--I 
would like to say there has been a great history in Arizona of 
doing that. I think that's true across the West. I think that 
the best solutions come from collaboration, they come from 
negotiation, and they come from the parties coming together to 
settle those claims.
    Senator Flake. Well, I can tell you, as a Senator following 
Senator Kyl, it is a bit daunting, given the work that he has 
done on water and in particular with these Indian water 
settlements. As you say, they are vital because it gives some 
kind of certainty and surety moving ahead for not just the 
tribes involved but other water users as well.
    Obviously, the Colorado River is extremely important to 
Arizona, all the Lower Basin and Upper Basin as well. Can you 
talk about what needs are there with regard to the Colorado 
River going ahead that Reclamation is going to be vital to?
    Ms. Burman. The Colorado River, as you said, is the 
lifeblood to Arizona, but also to seven basin states and to the 
country of Mexico. I'll be working with Secretary Zinke, if 
confirmed, to prioritize our work on the Colorado River. The 
Secretary has a very special role under the 1928 Boulder Canyon 
Project Act as the water master of the Lower Basin.
    There are issues right on the table. There is an agreement 
with Mexico that expires this year. I'll work with Secretary 
Zinke, if confirmed, to work on reaching agreement with Mexico 
before the end of the year if at all possible.
    The states have been working together to address drought 
and possible upcoming shortages. They are working hard right 
now. I hope to be confirmed swiftly and to work with them and 
to step into the Bureau of Reclamation and to see what we can 
accomplish as quickly as possible.
    Senator Flake. There is a drought contingency plan being 
worked out now I understand. What role will you play there?
    Ms. Burman. If confirmed as the lead of Reclamation, I'll 
be Secretary Zinke's prime adviser on working with the Basin 
states and Mexico on coming to agreement on a drought 
contingency plan.
    Senator Flake. Why is that important moving ahead?
    Ms. Burman. The Lower Basin and the Upper Basin are looking 
at shortage. There have been 18 years of shortage on the 
Colorado River. The Upper Basin states have been working 
together to try and shore up to make sure that they can keep 
critical elevations in Lake Powell, while the Lower Basin 
states have been working together and with Mexico to make sure 
that they can maintain critical elevations in Lake Mead.
    Looking ahead and looking at shortage, this is a way to 
prevent the system from, some would say, collapsing. What you 
need to do is you need to keep Lake Mead at a healthy level so 
that it can serve all the states and it can serve the 
constituents and people can look ahead and plan for what the 
possible shortages could be.
    There are a lot of commitments on the table. I am not part 
of those discussions right now, and I haven't been, but I do 
look forward to joining those and to staffing and serving 
Secretary Zinke as we work those out.
    Senator Flake. Well, thank you. Obviously, it is important 
in Arizona. Some water users have voluntarily left water behind 
the dam at Lake Mead to make sure that those levels stay where 
they need to be before mandatory arbitrary levels are hit that 
nobody wants to see. We have been given a bit of a reprieve 
with a very wet winter, particularly further West, but with the 
Upper Basin, it has been pretty good. Lake Powell seems to be 
going up. How much of a reprieve have we been given with regard 
to Lake Mead?
    Ms. Burman. I am going to leave that to the experts.
    [Laughter.]
    It has been a wet year, and that has been a blessing.
    Senator Flake. Well, certainly we know that it is going to 
take a lot of very wet winters to get us out of the woods here, 
and that is why this drought contingency plan is so important, 
to make sure that we plan. Nobody likes to talk about 
shortages--I think we refer to them as imbalances on the 
river--but those are significant in the future, and it is going 
to take a lot of planning. I am glad you have brought the 
expertise to the table that you bring from a number of 
different angles, and so I am excited to see you there and look 
forward to working with you if confirmed.
    Ms. Burman. Thank you, Senator.
    Senator Flake. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Flake.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Welcome to all of you. And I would like to welcome all the 
family members here, but especially the Minnesota Burmans.
    [Laughter.]
    They seem to be a cut above the other family members here.
    [Laughter.]
    Mr. Jonas, I just want to thank you for your statement 
regarding the article you wrote 20 years ago on the role of 
women and LGBT and the military. I like that you wrote and 
testified, ``I will bring all this experience, including the 
lesson of changing minds,'' to your new job if you are 
confirmed. Thank you for making that statement.
    Mr. Domenech, prior to your nomination for this position, 
you led the Fueling Freedom Project at the Texas Public Policy 
Foundation, a conservative think tank that receives funding 
from Koch brothers and ExxonMobil. Your job was to fight 
against any action that would reduce greenhouse emissions.
    Now, Mr. Domenech, you have been nominated to lead federal 
policy for U.S. territories, including a number in the Pacific 
and the U.S. Virgin Islands. These territories all happen to be 
islands in the Pacific and the Caribbean and are already seeing 
climate change impacts through rising sea levels, changing 
precipitation patterns, and ocean acidification. So I would 
like to better understand your views on the subject of climate 
change.
    The National Climate Assessment found that unless we take 
action, sea levels are expected to rise over three feet on 
average by the end of the century, possibly much more. Do you 
accept that view? And yes or no will do as an answer.
    Mr. Domenech. I'm not familiar--thank you for that 
question, Senator. I'm not familiar with that particular 
number, but I wouldn't be surprised if it's not true. I do 
agree that the climate is changing and that man has a role in 
that, and especially for the islands, they are particularly 
vulnerable, especially the low-lying atolls and islands are 
very vulnerable to sea level rise. And I've committed to the 
Governors and to the delegates that I would work with them on 
that issue.
    Senator Franken. Well, you did write in an op-ed last year, 
and I quote, ``Is man making an impact on the climate? Perhaps, 
but in very small ways.'' Is that what you meant when you 
answered my question?
    Mr. Domenech. Yes, and thank you again for reminding me of 
what I wrote. My understanding of where scientists are today is 
that man definitely has an impact on the climate, and the 
question is just, is it catastrophic? How much of an impact do 
they have? And that that is----
    Senator Franken. Is it your understanding that climate 
scientists say that man's effect on climate happens in a very 
small way? Is that your understanding? Because that's what you 
wrote.
    Mr. Domenech. Yes. I mean, I think----
    Senator Franken. So, but that is at odds with about 97 
percent of climate scientists.
    Mr. Domenech. Well, I would say to you, Senator, that the 
study that is cited on the 97 percent of climate scientists 
agree has been, my understanding, debunked in the past as a 
particular number, but I think the most----
    Senator Franken. Really?
    Mr. Domenech. Yeah, that's my understanding of it.
    Senator Franken. That is your understanding.
    Mr. Domenech. That was their study.
    Senator Franken. What is your understanding based on? I am 
really curious about that.
    Mr. Domenech. Well, I've read--thank you again for that 
question. I've read reports----
    Senator Franken. You are welcome.
    [Laughter.]
    Mr. Domenech. I've read reports that have looked at that 
particular study that said the 97 percent, and have indicated 
that there were flaws in that particular study, and I would be 
glad to follow up with you----
    Senator Franken. Well, could you tell me right now what you 
are talking about, what studies you are talking about?
    Mr. Domenech. I can't off the top of my head, no. It's not 
something I dwell on.
    Senator Franken. Did you find these studies on the 
prestigious Internet?
    [Laughter.]
    Mr. Domenech. I find--yes, I understand your point.
    Senator Franken. Okay. Well, I find this very disturbing. 
If confirmed, you are going to be responsible for some 
vulnerable communities, these island communities. So given your 
history of downplaying or ignoring climate change, why do you 
think you are the right person to help these communities?
    Mr. Domenech. Well, I've--again, thank you for that 
question. I've--my whole life has been spent trying to help 
people who are involved in the environment. In Virginia, when I 
was Secretary of Natural Resources, 100 miles from here we have 
Tangier Island, which is probably a better example to use of a 
fishing community in the middle of the Chesapeake Bay that is 
experiencing erosion and sea level rise and impacting that 
community. We worked with them quite a bit in terms of 
reinforcing their shoreline and those kinds of activities with 
the Corps of Engineers.
    And so I take it very seriously. I don't at all minimize 
that the climate is changing, and I would only say that the 
head of the U.S. Geological Survey himself has said that we 
need to always keep in perspective that the climate of the 
Earth has always changed since the beginning of the planet, and 
it always will change. So we have to put that in perspective 
when we deal with these natural----
    Senator Franken. Well, I think when we put that in 
perspective, we have to look at how it has changed since the 
Industrial Age and look at how it has changed and how the 
weather has changed in relation to the amount of carbon dioxide 
that is in the air. I believe you will see a correlation 
between temperature and the amount of CO2 in the atmosphere.
    Thank you.
    The Chairman. Thank you.
    Let's go to Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Ms. Burman, I want to start off with you, and I do want to 
say I find you have a very impressive resume. You have a broad 
array of experiences that I think you bring to this job, and 
you have a history of reliance on science and data. I want to 
start by saying frankly what worries me the most about the 
current Administration have been some of the expressions of 
disdain and distrust directed at science data and, in 
particular, scientists.
    Do you share any of that concern? And probably more 
importantly, what are you going to do to protect the Bureau's 
historic role as a science-driven, honest broker in water basin 
management?
    Ms. Burman. Thank you, Senator. In my past, when I worked 
at the Department, we continuously worked with the United 
States Geological Survey, with the USGS, to bring the best 
science possible to Reclamation and the interpretation of that 
science. We did that with climate change, we did that through 
the series of river gauges that exist over the United States 
that help the operators of water projects across the West be on 
the front lines and look at what's coming in the future.
    I am not with the Administration at this point, but I 
continue and I foresee continuing to work to make sure that 
Reclamation has the best science and the best understanding 
when moving forward.
    Senator Heinrich. If you were in a position where you felt 
like decisions might be made that were not in concert with the 
facts, with the best available science from USGS, how would you 
approach that?
    Ms. Burman. Senator, Secretary Zinke is putting his trust 
in me to lead Reclamation, and he's putting his trust in me to 
give him independent advice, and I'll call it as I see it.
    Senator Heinrich. Thank you.
    Mr. Menezes.
    Mr. Menezes. Yes.
    Senator Heinrich. One of the things I continue to hear 
about is the need for additional funding at the Waste Isolation 
Pilot Plant (WIPP) to recapitalize critical infrastructure. I 
hope you are aware of the issue over the last couple of years, 
the accident, the recovery from that accident; I suspect you 
are. But WIPP is now reporting a backlog of roughly $25 million 
in critical upgrades to key fire safety systems, 
instrumentations, and infrastructure.
    Having been through that experience, having seen WIPP shut 
its doors, I just think safety has got to be the absolute 
number one critical priority above all else for our DOE 
workers. I want to know if you are committed to finding the 
resources to make sure that WIPP cannot just operate, but 
operate safely.
    Mr. Menezes. Thank you, Senator, for that question. I have 
not been fully briefed on that; however, when meeting with your 
staff I said that one of our number one commitments, of course, 
would be worker safety at all of the critical sites, and 
certainly at WIPP, and we'll continue that commitment.
    Senator Heinrich. Well, I just want to reinforce that it is 
great to say that, and I trust that you mean exactly what you 
say, but we have had situations like the accident at WIPP that 
we simply, I think in the Complex, cannot tolerate. We cannot 
put people in those positions. When you make a compact with a 
state and with a community, part of what goes along with that, 
as the Carlsbad community is accepting this true waste from all 
over the country, all over the Complex, is that we have to make 
good on our side of that bargain, which is to make sure that 
those workers absolutely and always work in a safe environment. 
So I look forward to working with you to make sure that we make 
good on those promises.
    Mr. Menezes. Senator, you have my commitment to be a strong 
advocate for worker safety.
    Senator Heinrich. Mr. Dabbar, is the climate warming?
    Mr. Dabbar. Senator, the climate is absolutely changing. 
And I appreciate the question and the sensitivity to it. And I 
appreciate that, if I understand correctly, as the only 
engineer in the Senate, that I would love to work with you on 
this topic.
    Senator Heinrich. I do not want to throw my colleague from 
Montana under the bus, he is a chemical engineer, and we still 
count those. So there are a couple of us.
    [Laughter.]
    Do you concur that human activities are driving that? And, 
more importantly, what should we do about it? What are you 
going to do about it at DOE?
    Mr. Dabbar. Senator, thank you for the question. I 
absolutely agree that humans are contributing. My job, as Under 
Secretary of Science, should I be confirmed by this body, is to 
provide the data and to provide the technology for policymakers 
and appropriators to properly make decisions. My job, as a 
manager and focused on operations, is to execute on the 
appropriations. And as appropriated, I will absolutely go and 
spend those resources to provide you, the rest of the Senate, 
and the nation with the data and the technology for you to make 
those decisions.
    The Chairman. Thank you, Senator Heinrich.
    We will now turn to Senator Lee. I have to excuse myself to 
go down to an Appropriations Committee hearing. Senator Hirono 
will follow Senator Lee. My hope is that we will have other 
members coming in and out and I will be able to get back before 
we run out of questioners. But if in fact that is the case, I 
certainly will have more questions for the record. Again, 
remember that we will leave the record open until close of 
business today.
    Senator Lee, thank you for helping out here.
    Senator Lee [presiding]. Thank you very much, Madam Chair.
    Thanks to each of you for being here and for all you do.
    Ms. Burman, I would like to start with you if possible. I 
would like to bring to your attention a problem that we have 
been having in connection with the Flaming Gorge Dam which is, 
of course, in Northeastern Utah. The dam is located on the 
Green River, and it is one of four units in the Colorado River 
Project. Among a lot of functions that this particular dam 
performs, the dam regulates water flow, it controls flooding, 
and it provides recreational opportunities and a lot of related 
economic benefits to all the communities that are in place 
downstream from it.
    In 2006, the Bureau of Reclamation decided to operate the 
dam using an adaptive management approach. The approach was 
supposed to give the Bureau more flexibility in managing flow 
and flow releases in order to protect fish that were 
endangered. Although well-intended, that decision ended up 
having some dire consequences for some of the downstream 
communities. For example, in 2011, an ill-timed flow release at 
the dam during a period of particularly high spring runoff 
caused flooding along the river, resulting in many millions of 
dollars of property damage. Additionally, increased release 
volumes have severely hampered the tourism, outfitting, and 
fishing industries, all of which are pretty important essential 
economic pillars of these communities, and a lot of the impact 
on this has, of course, hit those who are least able to absorb 
it.
    State and local leaders are understandably anxious to 
resolve the problem. Earlier this year, a group of legislators 
sent a letter to the Bureau of Reclamation requesting to work 
collaboratively with the Bureau on a long-term solution that 
will ensure that local interests are not drowned out by their 
efforts to help fish. So if confirmed, Ms. Burman, will you 
commit to listen to state and local leaders and work with them 
to find a reasonable, workable solution to problems like this?
    Ms. Burman. Senator, I will. Your staff was kind enough to 
give me some background on the issues facing Flaming Gorge 
Reservoir, and when confirmed, I look forward to learning more, 
to working with Reclamation and with your staff to understand 
it better.
    Senator Lee. Thank you. I appreciate that commitment very 
much.
    Ms. Combs, Secretary Zinke has emphasized the importance of 
restoring trust between the American people and the U.S. 
Department of the Interior. This is, as you can imagine, 
especially important for many millions of Americans across the 
Western United States who feel ignored during and as a result 
of major land management decisions that have a tendency to 
disrupt their lives and their livelihoods in a somewhat unique 
way.
    I appreciate Secretary Zinke for the steps that he has 
already taken to restore trust among people in Utah, such as 
his listening tour through San Juan County in Southeastern Utah 
and his interim report to the President dealing with the Bears 
Ears National Monument, but there is still a lot of work to do.
    Ms. Combs, if confirmed, what role will you and your office 
play in helping to restore trust between the American people, 
particularly those most affected by decisions made by the 
Interior in places like the western United States and the 
Interior Department?
    Ms. Combs. Senator, thank you for that question. I think 
Secretary Zinke did, of course, discuss trust a number of 
times. He also talked about being sure that the federal 
personnel are actually near where some of the actions are 
taking place, and he really does want to be sure that the field 
offices are out there and that they're working in an open, 
collaborative, cooperative way where people really at all 
levels, whether it's city, state, county, local, et cetera, are 
talking with the Department of the Interior. And I would very 
much welcome the chance to work with you if I am confirmed.
    Senator Lee. Thank you.
    Mr. Dabbar and Mr. Menezes, I would like to direct my next 
question to both of you. You both have experience in the 
private sector, and you know that there are always difficult 
decisions to be made when you are investing limited resources. 
The last few decades have seen a lot of significant 
developments in the energy sector, but we have seen a lot of 
new ventures fail in that area as well. This is a good thing 
and actually a healthy thing, it is a healthy part of the 
process of innovation.
    In a free market, investments flow to the most promising 
technology, the most useful technology, but when government 
intervenes and supports a particular technology that happens to 
be politically favored, it has the potential to distort markets 
and discourage investment and other potentially more beneficial 
technologies.
    So if confirmed, what can each of you do to make sure that 
the Department of Energy is not using taxpayer dollars to pick 
winners and losers in the energy sector?
    Mr. Dabbar. Thank you, Senator Lee, for the question. And I 
fully appreciate given my both public and private sector 
experience in capital allocation across the energy industry, 
certainly, in my position as Under Secretary for Science, my 
primary focus will be to execute on the capital or the 
appropriation, to use either word, that's assigned by this 
body.
    Obviously, the Administration focuses on basic research, 
and there is obviously a tremendous amount of basic research 
opportunities within my potential area. I will execute, once 
again, on whatever is assigned, and I will make certain that 
that capital, whether it's in basic or applied, will be spent 
prudently.
    Senator Lee. Mr. Menezes.
    Mr. Menezes. Thank you, Senator. And to add to what my 
colleague said regarding appropriations, we will stand by ready 
to follow the intent of Congress on these things. You know, 
we're in an all-of-the-above position here. My company, 
Berkshire Hathaway, my experience there is you don't really 
pick winners and losers; you develop projects where you can to 
provide affordable, reliable service. In this case, renewables 
are developing very well.
    But having said that, there was a time when I recall that 
Congress passed a Fuel Use Act, which one of my companies was 
100 percent natural gas, which then forced us to go to coal. So 
I have shared experience in that, and I will bring a commitment 
to ensure that taxpayer dollars are spent as Congress intends.
    Senator Lee. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Welcome. Please excuse me for coming in and out. I have 
three committees going on at the same time, but I thank you for 
your willingness to serve. And welcome to your very large 
families.
    [Laughter.]
    It is nice to see everyone. So I only have five minutes. I 
am going to just ask a couple of questions here, and I will 
start with Mr. Menezes, is it?
    Mr. Menezes. That's correct.
    Senator Cortez Masto. And Mr. Dabbar.
    Geothermal energy is one of the fastest growing industries 
in Nevada. In 2013, there were 29 geothermal power plants 
operating in 9 of Nevada's 17 counties. The Nevada Department 
of Energy has estimated that at least 6,000 jobs will be 
created through geothermal energy investment. The proposed cuts 
to DOE will not provide for adequate funding for the Geothermal 
Technologies Office to continue researching geothermal energy 
innovations. Do you believe investments in geothermal energy 
should be prioritized? I will ask both gentlemen, Mr. Menezes 
and Mr. Dabbar, whoever wants to start.
    Mr. Menezes. Thank you very much. You have my commitment to 
be a strong advocate for spending the monies as sent to us by 
Congress, as directed by Congress, that we will follow the 
intent of Congress there, and particularly with geothermal. 
Both with my company's experience and my own personal 
experience with geothermal, it is indeed a very dynamic area. 
It's even becoming baseload in many instances.
    So it's an exciting time in the technological advancements 
with geothermal, and you certainly have my commitment to be a 
strong advocate for fully funding the geothermal activities 
following the will of Congress.
    Senator Cortez Masto. Thank you.
    Mr. Dabbar. Thank you, Senator, for the question. I agree 
with everything that my colleague, my hopefully future 
colleague, answered. I would just add that I've done a 
significant amount--I have investment experience in Nevada. I 
know that the largest geothermal company in the United States 
is headquartered in Reno, and I have personal experience with 
them. So I completely agree with that commitment, and I know 
that Nevada is a leader in this area.
    Senator Cortez Masto. Thank you. I appreciate those 
commitments.
    So let me ask Ms. Combs an additional question with respect 
to geothermal power, because the Administration budget repeals 
the 25 percent share of revenue distribution for geothermal 
royalties that is provided to many of our rural counties. These 
royalties provide up to 10 percent of revenue. Do you agree 
with repealing these payments? And isn't this a promise to 
rural areas like those in my home state?
    Ms. Combs. Well, thank you for that question, Senator. I, 
of course, have not been at the Department and taken a look at 
this. I'm actually a big fan of geothermal, and I will not say 
that I've seen it here, but I went to Iceland, and how much 
power they do is just extraordinary. And so I'm sort of an all-
of-the-above person, so whether it's wind, solar--I've got 
solar pumps on my ranch. I've seen geothermal. We don't--we're 
hot, but we're not that hot.
    [Laughter.]
    As well as, of course, support for gas.
    Senator Cortez Masto. Fantastic. Three out of three, I will 
take it. Being from Las Vegas, that is great odds.
    [Laughter.]
    Thank you very much.
    Let me ask, Ms. Burman. Thank you, first of all, for coming 
to visit with me. I really appreciate the conversation. There 
was one thing I did not get to talk to you about, and I know 
you are just getting into the office, but just let me put it 
out there. If you have the opportunity to respond or you want 
to look into it further, I also understand.
    The Bureau of Reclamation has determined that the Boca Dam 
in Nevada needs safety modifications. Typically, under the 
Safety of Dams Act, 15 percent of the costs incurred by the 
modifications are reimbursed and allocated to the, quote, 
``authorized purposes'' of the structure. Boca Dam's authorized 
purposes, per our Truckee River Operating Agreement, does not 
fit well under the Act's definition. So as Commissioner, do you 
think you would support an amendment to the Act to reflect a 
broader set of, quote, ``authorized purposes'' so that Boca Dam 
can apply under the statute to help expedite important safety 
modifications?
    Ms. Burman. Senator, I'm familiar with the Safety of Dams 
Act. I'm not familiar with the issues that are facing Boca Dam, 
but I do commit to working with you, with your staff, and to 
going back and working with the Department and Reclamation to 
understand it better and to work with you.
    Senator Cortez Masto. I appreciate that. And then, just in 
general, renewable energy obviously is an important part of our 
future in Nevada and across this country. The current budget 
administration--Trump Administration--wants to cut a number of 
the budget implications that would have a positive impact on 
renewable energy in this country. I hope I can work with all of 
you to not only continue to promote, fund, and support 
innovation research in this area, but I am looking forward to 
that collaboration. So I appreciate it.
    I know my time is up, but I thank you for your willingness 
to serve and being here today to answer all these questions.
    Senator Lee. Thank you. That completes the first round. I 
do not have any additional questions so starting on the second 
round, we will go to Senator Cantwell.
    Senator Cantwell. Thank you. Thank you, Senator Lee.
    Ms. Burman, we had a chance to talk about all of the Bureau 
of Reclamation projects and our philosophy and ideas and the 
challenges that we are facing. Our colleagues have had a chance 
to ask you a few questions on this, but I wanted to ask you 
specifically about collaboration and your experience. 
Obviously, the Yakima Basin Project is one of these examples. 
Do you think this is the path forward for us to get more work 
done on very, very thorny water issues in the West?
    Ms. Burman. Senator, I've been working on thorny water 
issues for 19 years now, and where I've seen victories and I've 
seen accomplishments, they've been accomplished through 
collaboration and working with the local communities. I'm just 
starting to learn about the Yakima Project. I've always heard 
that it's a project that's shown collaboration and has a lot of 
respect. I look forward to learning more about that.
    But absolutely, I think where projects work, where you fix 
issues, where you untie some of those thorny knots, is through 
working with everyone on the ground.
    Senator Cantwell. Okay, thank you.
    Ms. Combs, obviously, in your new job, you will have 
oversight over a lot of individuals within the Department of 
the Interior. I mentioned earlier in my opening statement that 
Secretary Zinke has reportedly ordered the reassignment of as 
many as 50 Department Senior Executive Service members. They 
are people who have special skills and extensive knowledge from 
the jobs that they have held, and they are being removed or 
given unwelcome reassignments. One of these individuals was 
revealed in the Washington Post this morning. You could say 
that he was a whistleblower--and is being reshuffled within the 
organization.
    So I, obviously, want to get answers to this, but I wanted 
to hear what your thoughts are on making sure that, as someone 
who would oversee these individuals, what are you going to do 
to protect the SES, Senior Executive Service, at the 
Department, these members, and make sure that they do not just 
get arbitrarily reassigned just because someone else does not 
believe in science?
    Ms. Combs. Senator, thank you for that question. I 
obviously have not been part of any decision-making in the 
Department, but I do understand the role of the Assistant 
Secretary for Policy, Management, and Budget. And I know that--
I believe I've been told that SES folks are supposed to be 
mobile, to add to their resumes. With respect to the particular 
matter you described, I don't have any information, but I 
certainly, if confirmed, will look forward to working with you 
on that, but I don't have any particular----
    Senator Cantwell. But you are aware of it?
    Ms. Combs. Somebody sent me a press release, a comment, 
this morning. That's the first I had heard of it.
    Senator Cantwell. Okay. Well, I am concerned enough that I 
intend to ask the Inspector General to look into it. As my 
colleague from New Mexico was talking about, the importance of 
science across both of these agencies is critically important, 
and so we need to make sure that those individuals who have the 
experience, who are involved in science, are going to continue 
to fulfill those responsibilities. There are always 
reorganizations at an agency, but making sure that people are 
there to fulfill the mission and that the people who have those 
experiences are not being reassigned simply because they have 
those experiences, so that someone, say, more political but 
without science experience, comes in to take their job.
    So I will definitely be asking the Inspector General to 
look into what the Department is doing. I would hope that you 
would take this as a very important message that we consider 
this, from an oversight perspective, a very important subject.
    Ms. Combs. Thank you, Senator.
    Senator Cantwell. Thank you, Senator Lee.
    Senator Lee. Thank you.
    Senator Cortez Masto, do you have any additional questions?
    [No audible response.]
    Senator Lee. Senator King.
    Senator King. Just one follow-up.
    Mr. Domenech, I was interested in your exchange with 
Senator Franken on climate change. You and I could spend a lot 
of time discussing it. I would just commend to you an analysis 
of CO2 in the atmosphere since about 1850, the inauguration of 
large-scale burning of fossil fuel. It has gone up from the 
band that it occurred over the last million years from about a 
maximum of 180 to 200, 300 parts per million to 400, a place it 
has not been for five million years. The coincidence of that 
rise in CO2 and the rise of the burning of fossil fuel is 
unmistakable. I would just like you to take a look at that data 
from Mauna Loa in Hawaii and other ice core data. I would be 
glad to provide that to you.
    Secondly, you may see the results of this in your 
jurisdiction because some of the islands you are responsible 
for may well disappear on your watch. I would suggest one 
interesting step in your stewardship of this responsibility 
would be to immediately, upon taking office, ask the residents 
of the islands in the Pacific to mark the main high water mark 
today, and then have it checked on the day you leave office. My 
guess is there will be a noticeable change.
    This is one of the most serious challenges facing our 
country and our world. I hope you will, as we have had one of 
the witnesses already testify, take the occasion to look at the 
data and open your mind to change.
    Thank you.
    Mr. Domenech. Thank you.
    The Chairman [presiding]. Thank you, Senator King.
    Mr. Menezes, I want to bring up an issue that we discussed 
with Secretary Moniz when he was Secretary of Energy, and this 
relates to the Office of Energy, Indian Policy and Programs. It 
is one of the smaller DOE offices, but it also accounts for all 
of DOE's employees in Alaska, both of them. We have two.
    [Laughter.]
    Two. For a considerable period of time, it was down to just 
one. I was home last weekend and was at church and ran into the 
one gentleman that has basically been holding down the fort all 
these years. When Secretary Moniz was in the state with us when 
we went out to Oscarville, he made the commitment that, yes, we 
have to address the issues with regard to the Office of Indian 
Energy and make sure that we are doing all that we can to help 
the communities, not just in Alaska, but around the country, to 
be more energy-sustainable. And the commitment was, ``Look, 
we've got to have at least three.''
    Well, we are not to three, we are sitting at two. And it is 
not typical for me to be pushing for more employees, but you 
have one-fifth of the--excuse me--one-half of the tribes in the 
country that are in Alaska. We have extraordinary energy 
potentials within the state, and certainly opportunities within 
the microgrid systems, again ways that we can reduce our 
reliance on fossil fuels in these high-cost areas.
    So I need to know whether you support the Office of Indian 
Energy and will work with us to make sure that these offices 
have the support that they clearly need in order to do what 
will help benefit not only those in rural parts of Alaska, but 
rural parts of our nation as well.
    Mr. Menezes. Thank you, Senator, for that question. I 
certainly support the Office of Indian Energy, going back to 
2005, when we put it in the bill, and today my commitment 
continues. Alaska continues to be a unique place, not only for 
the tribes that it serves, but also for R&D for our labs. So we 
look forward to working with you with that, and you have my 
commitment to be a strong advocate for the Office of Indian 
Affairs.
    The Chairman. Well, we really need that commitment. Again, 
we need the commitment to make sure that we have the resources 
on the ground to really help these small communities.
    I want to broaden the question a little bit and include 
you, Mr. Dabbar, with regard to microgrids. As folks know on 
this Committee, our grid system, our energy grid system, is 
pretty much limited to the rail-built area. When you have over 
80 percent of your communities that are not connected by road, 
that also means that they are not connected most times by any 
kind of an energy intertie. How can we take steps to again 
reduce reliance on diesel generation, because that is how many 
of these smaller communities are powered.
    Senator Cantwell came with me when we had a field hearing 
in Cordova, Alaska, and it was an opportunity to focus on what 
I think are some of the exciting prospects when it comes to 
microgrids, those things that we can do to really help 
integrate our renewable energy sources to bring down costs, to 
provide greater reliability. It is an area that I get excited 
about. It is an area that I think not only Alaska should be 
leading on, we are pioneering in so many of these ways.
    I am curious as to how you might structure a more 
comprehensive research program in microgrids to leverage the 
assets that we have within the Department and the expertise 
that we have, whether it is within our universities or whether 
it is what our local communities have, because we clearly saw 
that level of expertise at that field hearing. So how can we do 
more when it comes to our opportunities with microgrids? This 
impacts not only us in Alaska, but certainly our friends in 
Hawaii as well that are in the same type of structure.
    Mr. Dabbar. Thank you, Senator, for the question. I have 
quite a bit of experience, not in the Arctic, but in microgrids 
in Hawaii, in Texas, in California. What's truly exciting is 
that the technology changes that have taken place both on the 
renewable side as well as in the natural gas side and in 
storage has been dramatic in the last few years.
    The amount of--the ability for economically advantaged 
production of generation on a microgrid scale has jumped from 
not being very viable economically without some incentives to 
actually working without incentives in many places. And clearly 
Hawaii is one example of that, being a bit unique, but in many 
other areas of the country, even in Texas, I've seen microgrids 
and distributed generation work very well.
    I am not familiar with all of the work that the labs have 
done in this area, but I know the technology is there, and I 
know that it is economically viable, and it was not as 
economically viable just 5 or 10 years ago.
    So you have my commitment that I will dig into what the 
resources are and the research in this area at the Lab Complex, 
and I look forward to progressing that even further.
    The Chairman. We will invite you all up to Cordova and 
Oscarville and parts in between.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Mr. Dabbar, as you know, during your tenure at J.P. Morgan 
you worked directly with Hawaiian Electric Industries (HEI). In 
fact, I just heard from Connie Lau, who is the CEO and 
President of HEI, in support of your nomination. As you know, 
of course, Hawaii has relied on imported fossil fuel for 90 
percent of our energy production in the electricity area.
    Thanks in large part to the technical assistance provided 
by the Department of Energy and its world-class scientists and 
engineers, Hawaii has been making real progress shifting to 
sustainable, locally produced, renewable energy with the goal--
the most ambitious goal of any state in the country--of 
attaining 100 percent electricity from renewable sources by 
2045. This is why I was shocked to see the President 
drastically slashing funds for the Energy Efficiency and 
Renewable Energy program and eliminate the State Energy 
Program, something that Senator King has also talked about.
    If confirmed, you will be charged with overseeing DOE's 
world-class research and development capabilities at the labs, 
and I, of course, would want to work closely with you to build 
upon the progress Hawaii and DOE have made on renewable energy. 
Let's assume that we will restore the funding of these drastic, 
terrible cuts, will you commit to working with me to find ways 
to help achieve its renewable energy objectives?
    Mr. Dabbar. Thank you, Senator. I fully appreciate 
everything that you just said. I have lived in Hawaii a couple 
times in my life, both when I was growing up in Japan and 
coming to Hawaii and going to Punahou, as well as in the Navy 
and in the commercial area. I have a great degree of sympathy 
for aina and how renewables fit, and not even all renewables 
fit perfectly at all points in each county. I know exactly 
which type of renewables at which time with familiarity with 
Punahou and others. So I have a great degree of general 
understanding, having been on the ground and the sort of things 
that you're dealing with.
    Senator Hirono. So your answer would be a strong yes.
    [Laughter.]
    And whatever we can find in our collaboration with regard 
to Hawaii will have application to other jurisdictions, and I 
would say particularly to the island nations in the Asia 
Pacific area.
    Mr. Domenech, it was a pleasure to meet with you yesterday. 
In your role in administering the Compact of Free Association 
(COFA) with Micronesia, the Marshall Islands, and Palau, your 
position, as far as I am concerned, is very important because 
these areas often get neglected. I am looking for someone who 
is going to be a real advocate for our compact friends to whom 
we have an obligation, and we have not always lived up to our 
obligations.
    I just want to reconfirm with you that we will work 
together to keep our COFA commitments, including providing 
relief to affected states such as Hawaii, because our COFA 
citizens go to certain states more than any other states. We 
have seen some 15,000 COFA citizens coming to Hawaii, and we 
discussed their health care needs and other needs that impact 
Hawaii more than any other state in the country. Thirty million 
dollars a year for compact impact assistance to states like 
Hawaii is woefully short of what we actually need, so I would 
want to have your commitment that we will work together to keep 
our COFA commitments.
    Mr. Domenech. Yes. And thank you for taking the time 
yesterday to meet with me. And you do have my commitment.
    Senator Hirono. Thank you.
    For Ms. Combs, Hawaii is the endangered species capital of 
the world. Hundreds of our native plants and animals, which are 
very important to Hawaiian culture and our way of life, are 
threatened and endangered and require federal protection. Your 
critics claim that while you were Comptroller in Texas, you 
limited protections for endangered species and viewed them as a 
threat to the economy, referring to listings as, quote, 
``incoming Scud missiles,'' end quote.
    As Assistant Secretary for Policy, Management, and Budget, 
one of your duties will be to serve as the agency's Chief 
Financial Officer, and this includes being a steward of the 
financial resources for the U.S. Fish and Wildlife Service, one 
of two federal agencies that administers the Endangered Species 
Act. As Assistant Secretary, I would like your commitment that 
you will support the U.S. Fish and Wildlife Service's important 
duty to administer the Endangered Species Act to protect 
species in Hawaii and across the U.S.
    Ms. Combs. Thank you, Senator. I do believe that my past 
work on the Dunes Sagebrush Lizard and the Golden-cheeked 
Warbler, and Black-capped Vireo, and the great relationship 
that I had with Fish and Wildlife are important. Former Fish 
and Wildlife employee Dale Hall sent a letter in, he's the CEO 
of Ducks Unlimited, and he said that we had a wonderful working 
experience. I absolutely--you have my commitment that I will 
work with you and follow the law always.
    Senator Hirono. Madam Chair, if you do not mind, I just 
have one short question for Mr. Jonas.
    I am glad that you noted that your views, as expressed in 
the op-ed that you wrote in 1993 expressing some positions 
relating to women serving in the military as well as 
homosexuals in the military, were I would say even for 1993, 
pretty extreme. You noted that your views have evolved and I 
would like to know, was there some experience that you had that 
caused your views to evolve? I am concluding that you no longer 
hold these kinds of discriminatory views with regard to women 
serving in the military and homosexuals in the military, but 
was there something that happened that you no longer hold these 
kinds of extreme views?
    Mr. Jonas. Thank you very much for the question, Senator. I 
do, of course, stand by my opening statement, but I wouldn't 
say that there was a particular event, but my views did evolve. 
And I would certainly refer you to the fact that one of the 
interns that I hired in my office when I was the NNSA General 
Counsel was, clearly from his resume, gay, and he also, to show 
his leadership abilities on his resume, noted that he was the 
president of the student college Democrats. I hired him because 
I thought he was the best qualified individual, and I gave him 
good work to do, we have a great relationship. I have supported 
his career, as he has moved forward, with providing him 
recommendations for a number of positions.
    As he has moved up--as a personal matter, one of my goals 
is to help people grow and advance, and I'm not concerned 
whether they're men, women, gay, Jewish, Catholic, it doesn't 
matter. I want to help people as a personal goal, and that's 
what I do. That's what I did for that individual, and I no 
longer hold the views expressed in that article.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Ms. Combs, I want to ask a quick question about PILT, 
Payment in Lieu of Taxes, that the Department of the Interior 
administers and, of course, is a very, very important program. 
Looking at the President's budget, the FY18 budget proposed 
funding PILT through discretionary dollars. Can you just give 
me some information in terms of how you think the 
Administration might be able to secure stable, long-term 
funding through mandatory spending for the program? This is 
something that so many of our local governments, particularly 
our rural governments, rely on, and whether or not you think 
making any additional categories of lands, whether it is 
military or Indian lands, possibly eligible for PILT, and if 
so, why?
    I just want to get a sense from you on where you think we 
can go with PILT, because this is something that the Ranking 
Member and I talk a great deal about--not only PILT but Secure 
Rural Schools--and you would clearly have the oversight on the 
PILT side of it.
    Ms. Combs. Thank you, Senator. I'm familiar with PILT. 
Brewster County, where my ranch is, is the largest county in 
Texas, and the town I'm nearby has 450 people. And PILTs are 
very, very important when you take land off of the tax rolls, 
whether it's forest or whatever, the obligation of the 
government, of course, through PILT is to reimburse them. And I 
know from an education perspective, or county repairs, 
whatever, those are important. I obviously was not involved in 
the creation of the budget, but I also am well aware, having 
submitted my own budgets before and then working with the 
Appropriations Committee, that things get changed in the 
process. And so I look forward to working with you to ensure 
that these rural communities, which are so important all across 
the country and in Hawaii and in Alaska and everywhere, that 
they not be forgotten, that they be paid and compensated for 
that loss of revenue.
    The Chairman. Well, I look forward to working with you on 
this. I know that the Chairman of the Finance Committee and the 
Ranking Member--Senator Hatch and Senator Wyden--have been 
keyed in on this, and we have certainly as well. But it is 
something that we would like to get some certainty on because, 
as you note, particularly for these smaller communities, these 
payments are significant as part of their budget goes.
    Senator Hirono, I am glad you asked the question of Mr. 
Domenech about where we are with some of the compacts out 
there. The Palau agreement is one--the agreement to extend that 
financial assistance has been unfulfilled now for about seven 
years, and as you point out, there is a commitment there. But 
we keep coming back to, well, we cannot find the funding. At 
some point in time, we have to make good on the promises and 
the commitments.
    I am not going to ask you if you have any ideas, but I need 
to have your commitment that you will work to find that 
necessary funding so that we do make good on these promises, on 
these compacts.
    Mr. Domenech. Yes. If I'm confirmed, I will work with you 
and the Committee to try to find these funds. My understanding 
is the $123.9 million compact impact funding--or compact 
funding is in the NDAA in both the House and the Senate, so 
we're moving along.
    The Chairman. It is not there until it is there. I 
recognize that.
    [Laughter.]
    Mr. Domenech. It's an authorization, not a----
    The Chairman. That is exactly right. Let me ask you one 
more question, and this relates to the CNMI workers permit 
program, the CW permit program. This is one where I have had 
some ongoing discussion with folks. They are seeing economic 
growth in CNMI, and we applaud that. We see it particularly in 
the tourism sector; but the law sunsets that program by 2019, 
and there is a great deal of concern that the ability to find 
the available workers, to abide by the law, to make it all knit 
together within the timeframe is going to be very challenging. 
Do you have any familiarity with this permit program, and do 
you have any suggestions in terms of how we might address this 
upcoming deadline here?
    Mr. Domenech. I appreciate that question. I need to be 
briefed on that. I have personally not been involved in any of 
the Insular Office issues on purpose because I felt like it was 
inappropriate, but I am aware of the issue that they're having 
quite a challenge with workers, and we need to figure out a way 
to fix it.
    The Chairman. Well, it is significant. Again, we talk about 
payments that come to the states, the payments that we are 
responsible for to our territories. I think at the end of the 
day the best solution for so much of this is if they have 
stronger economies, then things are working within these 
islands. But making sure that the policies that we have in 
place are helping to assist build those economies rather than 
dragging them back is something that we need to be working on 
and doing that together.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair. I wanted to ask 
you, Ms. Combs, obviously in your role in Texas you know a lot 
about royalty rates. One of the things I find surprising is 
Secretary Zinke recently decided to cut royalty rates paid by 
oil and gas leases in the future on offshore sales from 18.75 
percent down to 12.5 percent. I think your rate in Texas is 
much higher than that?
    Ms. Combs. Thank you, Senator, for that question. I'm not 
familiar with the matter that you talked about, but I know that 
in the private sector in Texas, generally people get about 25 
percent royalty rate, just about. It used to be 17, 18, 20, and 
now that it bumped up in the Eagle Ford and Permian Basin to 
about 25. I don't know what the offsets are, though. I don't 
know to what extent things such as transportation or other 
embedded costs are removed. It depends on the particular lease 
that people have. And this is something I will certainly take a 
look at, but I'm not familiar with it right now.
    Senator Cantwell. Okay. We definitely want to make sure 
that we get a fair deal for the taxpayer and that royalties 
obviously are reviewed and updated. We have concerns on the 
coal side that we feel like it has not been reviewed and 
assessed in a while as it relates to impact, so we want to make 
sure that we do that. I look forward to working with you on 
that issue.
    Ms. Combs. Absolutely.
    Senator Cantwell. Mr. Jonas, I was struck by your comment. 
You said that you thought someone was gay by their resume?
    Mr. Jonas. Thank you for the question, Senator. Yes, this 
individual made it very clear. He was very proud of being gay, 
and he made it very clear on his resume that he was a member of 
a number of LBGT groups. I believe that he did that--I think he 
told me he did that because he wanted it known, and he was very 
proud of that.
    Senator Cantwell. Okay. So he communicated that to you. I 
just wanted to make that clear for the record.
    Mr. Jonas. Yes.
    Senator Cantwell. He communicated that to you.
    Mr. Jonas. That's correct.
    Senator Cantwell. It is not like you looked at a piece of 
paper and made an assumption about someone.
    Mr. Jonas. That's correct, Senator.
    Senator Cantwell. Okay. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator King, any further questions?
    [No audible response.]
    Well, I have no more that I will include right now. I will 
probably submit a couple for the record. We have a vote that is 
supposed to be starting right now at 12:15.
    Thank you each for being here. Thank you for giving us this 
time this morning and allowing us to learn more about you and 
your qualifications and your interest in serving this 
Administration and our country. We appreciate the support of 
all of your families. I think that we all know that we cannot 
do nearly the job that we need to do without the support of 
those around us, so we thank you for being part of this 
morning's hearing. We look forward to the process moving 
forward.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:16 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
